<html>
<title> - NOMINATIONS OF MIGNON L. CLYBURN AND MEREDITH ATTWELL BAKER TO THE FEDERAL COMMUNICATIONS COMMISSION</title>
<body><pre>[Senate Hearing 111-357]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 111-357
 
                    NOMINATIONS OF MIGNON L. CLYBURN
                   AND MEREDITH ATTWELL BAKER TO THE
                   FEDERAL COMMUNICATIONS COMMISSION

=======================================================================



                                HEARING

                               before the

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                             JULY 15, 2009

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation




                  U.S. GOVERNMENT PRINTING OFFICE
52-755                    WASHINGTON : 2009
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

            JOHN D. ROCKEFELLER IV, West Virginia, Chairman
DANIEL K. INOUYE, Hawaii             KAY BAILEY HUTCHISON, Texas, 
JOHN F. KERRY, Massachusetts             Ranking
BYRON L. DORGAN, North Dakota        OLYMPIA J. SNOWE, Maine
BARBARA BOXER, California            JOHN ENSIGN, Nevada
BILL NELSON, Florida                 JIM DeMINT, South Carolina
MARIA CANTWELL, Washington           JOHN THUNE, South Dakota
FRANK R. LAUTENBERG, New Jersey      ROGER F. WICKER, Mississippi
MARK PRYOR, Arkansas                 JOHNNY ISAKSON, Georgia
CLAIRE McCASKILL, Missouri           DAVID VITTER, Louisiana
AMY KLOBUCHAR, Minnesota             SAM BROWNBACK, Kansas
TOM UDALL, New Mexico                MEL MARTINEZ, Florida
MARK WARNER, Virginia                MIKE JOHANNS, Nebraska
MARK BEGICH, Alaska
                    Ellen L. Doneski, Chief of Staff
                   James Reid, Deputy Chief of Staff
                   Bruce H. Andrews, General Counsel
   Christine D. Kurth, Republican Staff Director and General Counsel
              Brian M. Hendricks, Republican Chief Counsel


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on July 15, 2009....................................     1
Statement of Senator Rockefeller.................................     1
Statement of Senator Hutchison...................................     3
Statement of Senator DeMint......................................     5
Statement of Senator Begich......................................     5
Statement of Senator Ensign......................................    26
Statement of Senator Lautenberg..................................    28
    Prepared statement...........................................    30
Statement of Senator Johanns.....................................    31
Statement of Senator Cantwell....................................    32
Statement of Senator Thune.......................................    34
Statement of Senator Klobuchar...................................    35
Statement of Senator Dorgan......................................    39

                               Witnesses

Hon. Lindsey Graham, U.S. Senator from South Carolina............     4
Mignon L. Clyburn, Commissioner-Designate, Federal Communications 
  Commission.....................................................     5
    Prepared statement...........................................     7
    Biographical information.....................................     8
Meredith Attwell Baker, Commissioner-Designate, Federal 
  Communications Commission......................................    13
    Prepared statement...........................................    15
    Biographical information.....................................    16

                                Appendix

Response to written questions submitted to Mignon L. Clyburn by:
    Hon. John D. Rockefeller IV..................................    43
    Hon. Daniel K. Inouye........................................    43
    Hon. John F. Kerry...........................................    43
    Hon. Frank R. Lautenberg.....................................    44
    Hon. Tom Udall...............................................    44
    Hon. Mel Martinez............................................    47
    Hon. John Ensign.............................................    48
    Hon. Johnny Isakson..........................................    49
    Hon. David Vitter............................................    49
    Hon. Jim DeMint..............................................    50
    Hon. Olympia J. Snowe........................................    51
    Hon. Charles Grassley........................................    53
Response to written questions submitted to Meredith Attwell Baker 
  by:
    Hon. John D. Rockefeller IV..................................    54
    Hon. Daniel K. Inouye........................................    55
    Hon. John F. Kerry...........................................    55
    Hon. Frank R. Lautenberg.....................................    55
    Hon. Tom Udall...............................................    56
    Hon. Olympia J. Snowe........................................    58
    Hon. Jim DeMint..............................................    60
    Hon. Johnny Isakson..........................................    61
    Hon. Charles Grassley........................................    61


                   NOMINATIONS OF MIGNON L. CLYBURN

                   AND MEREDITH ATTWELL BAKER TO THE


                   FEDERAL COMMUNICATIONS COMMISSION

                              ----------                              


                        WEDNESDAY, JULY 15, 2009

                                       U.S. Senate,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 2:30 p.m. in room 
253, Russell Senate Office Building, Hon. John D. Rockefeller 
IV, Chairman of the Committee, presiding.

       OPENING STATEMENT OF HON. JOHN D. ROCKEFELLER IV, 
                U.S. SENATOR FROM WEST VIRGINIA

    The Chairman. Now this hearing does come to order.
    And before I start, I want to acknowledge there are some 
extremely important people here, and I want to introduce them, 
and then I'll make a statement. And then Senator Kay Bailey 
Hutchison, the Ranking Member, will make a statement and then I 
will explain after that.
    First of all, I want to welcome the father and mother of 
Ms. Clyburn for appearing today, the Majority Whip of the House 
Jim Clyburn and his wife, Emily.
    Mr. Clyburn. Thank you, Mr. Chairman.
    [Applause.]
    The Chairman. Representative Bennie Thompson.
    [Applause.]
    The Chairman. Representative Carolyn Kirkpatrick.
    [Applause.]
    The Chairman. Representative G.K. Butterfield. I love that 
name.
    [Laughter and applause.]
    The Chairman. And Representative Henry Brown.
    [Applause.]
    The Chairman. All right. I will proceed to my statement. I 
welcome all of you here. The room is very crowded. That means 
you are here on behalf of the future of one of the two most 
important agencies in all of government, not that well-known, 
but to those who live and die by it, very well-known. The FCC 
has enormous, wide-ranging authority, and the question is, will 
it exercise it, will it expand it, will it not exercise it.
    From broadband wireless to television content, a topic that 
I care very much about, this is the agency that oversees it 
all. Interestingly, they oversee violence, but they don't 
oversee bad language or promiscuity or things of that sort. And 
they are still going on the assumption, the FCC, that adult 
time begins at 10 o'clock, because all kids are asleep. Having 
several kids and grandkids, it's my general impression that's 
when kids begin doing their homework--at 10 o'clock. So what is 
on TV at that point makes a lot of difference and the FCC has 
everything to do with that.
    Because we entrust our powers to the FCC Commissioners, we 
naturally come to expect a lot from them. And I will say this, 
that in my judgment, the FCC is a broken agency waiting for the 
right kind of leadership, and the commissioner and commission 
need to make it work in the way that it absolutely must as we 
go into the years ahead.
    I think that it should rely on facts. It should accept bad 
news. It shouldn't be ideological. I think it has been. That's 
my view. It may not be shared by others. I think where it 
should be open and transparent, it has been opaque and 
beholden, quite frankly, to those interests that it regulates. 
That's not a happy combination in government. Worse, I believe 
it has lost sight of its mission, helping all consumers, 
consumers being the American people, benefit from the great 
explosion of communication technology that is changing our 
economy and changing our world.
    There is almost nothing in the world of inter-connection or 
telecommunications, anything that you want, that the FCC 
doesn't touch and make basic decisions about. So I charge both 
of our nominees today to do their part to repair this agency, 
and I'm sure they will, with the perspectives you bring to the 
table. I thank the nominees who are now before me for bringing 
to this Commission a lot of experience. Ms. Clyburn, you have a 
seasoned history of being a state regulator and you can share 
that, you know exactly what it is all about, and you come from 
rural America which makes somebody from West Virginia happy.
    In Ms. Baker, we have somebody who is coming from the 
trenches and one of the most important and misunderstood or not 
understood agencies in the Federal Government, the NTIA, and 
she knows telecommunications issues from the inside out, no 
questions asked. Very strong and very good. Both are devoted 
public servants.
    So show us, I would charge you both, that the FCC can put 
consumers first, show us that the agency can produce data that 
we can trust; show us that the agency can produce data that we 
can see; and show us that the American people can have access 
to first-class communications, no matter who they are and where 
they live. That is a huge subject.
    This committee is going to be watching very carefully. We 
are very much an oversight committee, any committee has that 
responsibility, but we have to be extra stringent on that. So I 
look forward to the testimony of the two who are before us.
    Before that, I want to apologize, because as happens around 
here, but not ordinarily under circumstances as important such 
as this, like the FCC, but we have the Intelligence Committee 
reauthorization that has some fairly basic principles in it 
that have to be voted on, and I have to be there. I have to be 
there.
    So my good friend from Alaska, another metropolitan state, 
is going to be taking over, Mark Begich. He is new. This is his 
first year, and yet if you watch him and listen to him, you 
would think he has been here for 30 years. So I thank all of 
you. I apologize to all of you, and particularly, of course, to 
our witnesses, and now I present to you, Kay Bailey Hutchison.

            STATEMENT OF HON. KAY BAILEY HUTCHISON, 
                    U.S. SENATOR FROM TEXAS

    Senator Hutchison. Thank you very much, Mr. Chairman. I am 
very pleased that we are finally getting closer to having a 
full FCC and I think this is a great step in the right 
direction. I want to also acknowledge the names of another 
mother and father in the room, and that is Kirby and Nancy 
Attwell, who are the mother and father of our nominee, Meredith 
Baker, and her husband, James Baker, Jamie, we are glad you are 
here.
    And Meredith, if there are others you want to introduce, 
you can do so later, but I was very pleased that they would be 
able to come and give their support.
    I do want to welcome Meredith, as her home state Senator, 
and also say that it has been wonderful to get to know her 
incredible experience in FCC policymaking. She will be a great 
asset to the debate at the FCC. She has a solid grasp of the 
technical issues which will surely help guide her as the 
Commission considers and develops the National Broadband plan. 
Moreover, she has much experience working with the public 
safety community and as the FCC looks to make a national 
interoperable wireless network, she will be a valuable voice in 
the Commission.
    Our state is 80 percent rural. Being a native of Texas will 
no doubt provide Meredith with the unique understanding of the 
communications issues facing rural and urban America.
    Mignon Clyburn also has vast experience and I was very 
happy to meet with her in my office in the run-up to this 
hearing. Her background is in print media. That provides an 
important perspective to understand the difficulties faced by 
newspapers and other media outlets in these very difficult 
economic times. She also has an impressive public service 
background which I hope will help guide her through the very 
important media issues at the FCC.
    Mr. Chairman, we have two extraordinary women with deep 
commitments to public service before us this afternoon, and I 
am looking forward to hearing from both of them and working 
with you to confirm both of them on an expeditious basis, so 
that the FCC can get to the business of dealing with all the 
issues that we have talked about and know are so important for 
the communications and the technology revolution that is 
happening. And I am ready for them to roll up their sleeves and 
help solve those problems. So thank you, Mr. Chairman, and I 
look forward to working with you toward their confirmation.
    The Chairman. Thank you very much, I would say to the 
distinguished Senator from Texas. I would like to introduce now 
Senator Lindsey Graham, who if I can guess correctly, will be 
making a certain introduction, and I hope that you won't take 
the other side of the case.
    [Laughter.]

               STATEMENT OF HON. LINDSEY GRAHAM, 
                U.S. SENATOR FROM SOUTH CAROLINA

    Senator Graham. I think we are on the same sheet of music 
here.
    Thank you, Mr. Chairman. And I am honored to be here. You 
know we have the Supreme Court confirmation going on with Judge 
Sotomayor. There is a lot happening in the Senate today. It's a 
busy place, but I am so glad we have two nominees to fill out 
the Federal Communications Commission because of the role they 
play.
    Congressman John Spratt is here to show support for our 
nominee, Mignon Clyburn and her family and Henry Brown. And I 
think it speaks a lot for our South Carolina delegation for 
Henry and John to come over. As these two nominees answer your 
questions and I am sure they will be penetrating questions as 
they should be, about how we move forward and where do we take 
rural America and urban America when it comes to the 21st 
Century, what I am here for today is vouch. South Carolina is a 
small state, and we all pretty much know each other, our warts 
and all. And I tell you, you cannot have a better person 
representing the people of the United States than Ms. Clyburn.
    You mentioned something in your opening statement about 
trust. That this committee would trust that the Commission 
share information necessary for the Commission to have 
oversight and for the country to move forward in a good way. 
One thing I can tell you about Ms. Clyburn that all of us who 
know her and worked with her throughout the years trust her. 
She will be honest with you and put the best interests of the 
United States ahead of her own.
    I know this is a big moment for her parents and her family. 
Her dad is a successful leader in the state and Nation and I 
know her parents very well, and I am sure they are here today 
as parents. We all speak well of this family. The Public Works 
Commission in South Carolina, Mr. Chairman, is a very big deal. 
It regulates powerful interests and industries and she has been 
on that commission, she has been a chairman of that commission, 
so the issues that she will be dealing with in the Federal 
Communications Commission will not be unknown to her. And the 
leadership she provided our state at the Public Service 
Commission will help this country.
    I know my colleague, Senator DeMint, shares these views but 
home state Senators are expected to come and speak for someone 
from their state. This is not expected of me in this case. I am 
proud to be here. And I hope every member of this committee 
will understand that this fine young lady is the right person 
at the right time for this most important job. And she is well-
qualified, and I hope she gets confirmed unanimously. Thank you 
very much.
    The Chairman. Thank you very much, Senator Graham. John 
Spratt has come and I hope that he will stand, so he can be 
recognized.
    [Applause.]
    And Senator DeMint, as word has it, is from South Carolina 
and may well have something he wishes to say.

                 STATEMENT OF HON. JIM DeMINT, 
                U.S. SENATOR FROM SOUTH CAROLINA

    Senator DeMint. Thank you, Mr. Chairman. I would like to 
add my support to Ms. Clyburn and I'm particularly delighted to 
support her because this means that Jim Clyburn, John Spratt 
and Jim DeMint are in complete agreement on an issue. I would 
like to welcome my other House colleagues here and just add a 
little bit to what has already been said.
    We know how important the FCC is. There is a lot that has 
to be done. The communication sector is growing at an 
incredible pace with innovation and new technologies that we 
never dreamed we would be dealing with, which makes the issues 
of regulation very complex.
    After talking with Ms. Clyburn, I am impressed by her years 
of service on the Public Service Commission, her experience in 
small business and her civic involvement, which is particularly 
important to me as I look at what she did with the YWCA and the 
South Carolina Cancer Center and the Columbia College Board of 
Visitors. It shows a servant's heart and someone involved in 
causes much bigger than themselves. And I think she is a great 
representative of what is best about South Carolina and our 
country, and I am honored to support her today. Thank you, Mr. 
Chairman.

                STATEMENT OF HON. MARK BEGICH, 
                    U.S. SENATOR FROM ALASKA

    Senator Begich [presiding]. Thank you very much, Senator. 
Let me--this is my first time to chair, so you'll have to bear 
with me.
    Let me, if I can, have the two witnesses come forward, the 
two nominees. Each one will have five minutes to make her 
opening statement afterward we'll go through a rotation of 
questions from members of the Committee. Ms. Clyburn, you will 
be first.

STATEMENT OF MIGNON L. CLYBURN, COMMISSIONER-DESIGNATE, FEDERAL 
                   COMMUNICATIONS COMMISSION

    Ms. Clyburn. Thank you, Senator. I would like to thank 
Chairman Rockefeller, Ranking Member Hutchison and 
distinguished Members of the Committee for the great privilege 
of appearing before you today as a nominee for the Commissioner 
of the Federal Communications Commission. I applaud the 
Chairman's call for an FCC that serves all Americans and share 
his passion for and commitment to meaningful reform.
    The FCC should never lose sight of the public interest it 
was created to protect. The Chairman's leadership on this score 
has been extraordinary. Senator Hutchison, if confirmed, I look 
forward to working with you to develop a communications policy 
that reflects a keen awareness of the impact of the 
Commission's decisions on both consumers and industry 
stakeholders.
    I would like to thank Senator Graham for introducing me 
today. Senator Graham has a long and distinguished record of 
public service, and I am humbled by his kind words in support 
of my nomination. I also would like to thank and acknowledge my 
other Senator, Mr. DeMint, another distinguished public servant 
with whom I look forward to working on communications issues, 
if confirmed.
    I would also like to acknowledge, as was mentioned earlier, 
the support and presence of a number of Members of Congress who 
you have introduced this afternoon. I am deeply honored by 
President Obama's nomination to serve as a Member of the 
Commission. If confirmed, I pledge to work with each member of 
this Committee to ensure that the FCC is fair, open, and 
transparent, and that it protects consumers, encourages robust 
competition in the marketplace, and champions technological 
innovation.
    My record reflects an understanding of the kinds of 
challenges faced by everyday Americans. I began my professional 
career by serving for 14 years as Publisher, General Manager 
and Lead Editor of the Coastal Times, a weekly newspaper 
serving greater Charleston. The paper, a business I helped 
build from the ground up, offered a voice to those individuals 
and families whose stories were rarely covered by the 
mainstream press, and reported on issues and events with direct 
relevance to their daily lives.
    That experience has served as a guide in my current role as 
a member and former chair of the South Carolina Public Service 
Commission. During my 11 years at the Commission, I never lost 
sight of the fact that at the end of every Commission decision, 
our customers, consumers and businesses are left to contend 
with the consequences of our actions. A successful regulatory 
agency must weigh these implications in order to best 
understand where and in what circumstances regulations make 
good sense.
    I am also a strong believer in the value of collaboration 
within and among levels of the government. As current Chair of 
the Washington Action Committee for the National Association of 
Regulatory Utility Commissioners, I have witnessed firsthand 
the benefits of and necessity for cooperation among local, 
state, and Federal Governmental agencies. These partnerships 
are essential to achieving a uniform and predictable regulatory 
environment in which technological innovation can thrive.
    I appear before you well aware of the formidable economic 
challenges our Nation faces today. I firmly believe however, 
that we have at our disposal a communications sector that, if 
harnessed, should be a leader in our Nation's economic recovery 
and long-term sustainable economic growth. Our success will 
depend in large measure upon our ability to think creatively, 
spur innovation and work together to use communications 
technologies in a way that enables businesses to succeed and 
improve the lives of Americans.
    We must also ensure that all Americans have access to and 
can make productive use of the communications tools essential 
to making the American dream a reality. Most notably, by 
providing universal high-speed, high quality, affordable access 
to broadband, we can establish the essential underpinnings for 
enduring national prosperity.
    Before closing, I would like to thank my family and 
friends, many of whom are here today for their constant love 
and support. My father, James, who many of you know, has 
instilled in me the value of courage and compassion and 
stressed their importance in the world of public service. My 
mother, Emily, a retired librarian, shared with me her love of 
learning and the power of knowledge. My siblings, Jennifer, a 
public schoolteacher and Angela, a wellness advocate, taught me 
the art of diplomacy and the value of respecting and 
appreciating all points of view.
    It would be my sincere honor to utilize these qualities 
working with Chairman Genachowski, Commissioners Copps, 
McDowell and Baker, if confirmed, the outstanding FCC staff, 
and the distinguished Members of this Committee to confront our 
Nation's economic and communications challenges. If confirmed, 
I will not take lightly your trust.
    Chairman. Senator----
    [Laughter.]
    Senator Begich. It's a bait and switch.
    Ms. Clyburn. And members of the Committee, I again thank 
you for the opportunity to appear before you today and I am 
pleased to answer your questions.
    [The prepared statement and biographical information of Ms. 
Clyburn follows:]

   Prepared Statement of Mignon L. Clyburn, Commissioner-Designate, 
                   Federal Communications Commission
    Thank you, Chairman Rockefeller, Ranking Member Hutchison, and 
distinguished Members of the Committee for the great privilege of 
appearing before you today as a nominee for Commissioner of the Federal 
Communications Commission.
    Mr. Chairman, I applaud your call for an FCC that serves all 
Americans and share your passion for and commitment to meaningful 
reform. The FCC should never lose sight of the public interest it was 
created to protect. Your leadership on this score has been 
extraordinary.
    Senator Hutchison, if confirmed, I look forward to working with you 
to develop a communications policy that reflects a keen awareness of 
the impact of the Commission's decisions on both consumers and industry 
stakeholders.
    I would like to thank Senator Graham for introducing me today. 
Senator Graham has a long and distinguished record of public service, 
and I am humbled by his kind words in support of my nomination. I also 
would like to acknowledge my other Senator, Mr. DeMint, another 
distinguished public servant with whom I look forward to working on 
communications issues, if confirmed.
    I am deeply honored by President Obama's nomination of me to serve 
as a member of the Commission. If confirmed, I pledge to work with each 
member of this Committee to ensure that the FCC is fair, open and 
transparent, and that it protects consumers, encourages robust 
competition in the marketplace and champions technological innovation.
    My record reflects an understanding of the kinds of challenges 
faced by everyday Americans. I began my professional career by serving 
for 14 years as Publisher, General Manager and Lead Editor of The 
Coastal Times, a weekly newspaper serving Greater Charleston. The 
paper--a business I helped build from the ground up--offered a voice to 
those individuals and families whose stories were rarely covered by the 
mainstream press, and reported on issues and events with direct 
relevance to their daily lives.
    That experience has served as a guide in my current role as a 
member--and former Chair--of the South Carolina Public Service 
Commission. During my 11 years at the Commission, I have never lost 
sight of the fact that at the other end of every Commission decision 
are consumers and businesses that are left to contend with the 
consequences of our actions. A successful regulatory agency must weigh 
these implications in order to best understand where and in what 
circumstances regulation makes good sense.
    I am also a strong believer in the value of collaboration within 
and among levels of the government. As the current Chair of the 
Washington Action Committee for the National Association of Regulatory 
Utility Commissioners, I have witnessed first-hand the benefits of and 
necessity for cooperation among local, state and Federal Governmental 
agencies. These partnerships are essential to achieving a uniform and 
predictable regulatory environment in which technological innovation 
can thrive.
    I appear before you well aware of the formidable economic 
challenges our Nation faces today. I firmly believe, however, that we 
have at our disposal a communications sector that, if harnessed, should 
be a leader in our Nation's economic recovery and long-term sustainable 
economic growth. Our success will depend in large measure upon our 
ability to think creatively, spur innovation and work together to use 
communication technologies in a way that enables businesses to succeed 
and improve the lives of Americans.
    We also must ensure that all Americans have access to and can make 
productive use of the communications tools essential to making the 
American Dream a reality. Most notably, by providing universal, high-
speed, high-quality affordable access to broadband we can establish the 
essential underpinnings for enduring national prosperity.
    Before closing, Mr. Chairman, I would like to thank my family and 
friends, many of whom are here today, for their constant love and 
support. My father, James, who many of you know, has instilled in me 
the values of courage and compassion, and stressed their importance in 
the world of public service. My mother, Emily, a retired librarian, 
shared with me her love of learning and the power of knowledge. My 
siblings Jennifer, a public school teacher, and Angela, a wellness 
advocate, taught me the art of diplomacy and the value of respecting 
and appreciating all points of view.
    It would be my sincere honor to utilize those qualities working 
with Chairman Genachowski, Commissioners Copps, McDowell and Baker, if 
confirmed, the outstanding FCC staff, and the distinguished Members of 
this Committee to confront our Nation's communications challenges. And 
if confirmed, I will not take lightly your trust.
    Chairman Rockefeller and Members of the Committee, again I thank 
you for the opportunity to appear before you today, and I am pleased to 
answer your questions.
                                 ______
                                 
                      a. biographical information
    1. Name (Include any former names or nicknames used):

        Mignon Letitia Clyburn.
        Nickname: Ming.

    2. Position to which nominated: Commissioner, Federal 
Communications Commission.
    3. Date of Nomination: June 25, 2009.
    4. Address (List current place of residence and office addresses):

        Residence: Information not released to the public.

        Office: South Carolina Public Service Commission, 101 Executive 
        Center Drive, Columbia, SC 29210.

    5. Date and Place of Birth: March 22, 1962; Charleston, SC.
    6. Provide the name, position, and place of employment for your 
spouse (if married) and the names and ages of your children (including 
stepchildren and children by a previous marriage): N/A.
    7. List all college and graduate degrees. Provide year and school 
attended.

        University of South Carolina, Columbia, SC, 1980-1984.

        B.S. Business Administration--Banking & Finance and Economics.

        (I also graduated from the South Carolina Executive Institute 
        in 2000).

    8. List all post-undergraduate employment, and highlight all 
management- level jobs held and any non-managerial jobs that relate to 
the position for which you are nominated.

        Public Service Commission of South Carolina, State Utilities 
        Commissioner, 1998-present; Chair, 2002-2004.

        The Coastal Times newspaper, 1984-1998, Publisher, General 
        Manager.

        The Coastal Times Today, Producer, public affairs program, UPN 
        Charleston, 1991-1992.

    9. Attach a copy of your resume. A copy is attached.
    10. List any advisory, consultative, honorary, or other part-time 
service or positions with Federal, State, or local governments, other 
than those listed above, within the last 5 years.

        South Carolina Advisory Committee, U.S. Commission on Civil 
        Rights, (1999-present), current Chair.

        South Carolina Energy Advisory Council (2001-present).

        South Carolina Education Oversight Committee, Common Ground 
        School Improvement Committee, 2005-2006.

        Commission on Columbia City Government Reform and 
        Restructuring, 2005-2006.

    11. List all positions held as an officer, director, trustee, 
partner, proprietor, agent, representative, or consultant of any 
corporation, company, firm, partnership, or other business, enterprise, 
educational, or other institution within the last 5 years.

        The Palmetto Project, Trustee, Secretary/Treasurer, 2004-
        present.

        Trident Technical College Foundation, Board and former 
        Executive Committee Member, 2001-present.

        South Carolina Cancer Center Board, 2007-present.

        Columbia College Board of Visitors, 2007-present.

        YWCA of Greater Charleston, Board Member and President, 2006-
        2008.

        Reid House of Christian Service, Board Member, 2001-2008.

        Edventure Children's Museum, Board Member, 1999-2005.

        National Association of Regulatory Utility Commissioners, 
        (Member since 1998, Audit Committee Member since 1999, and 
        Washington Action Chair since 2006).

        Southeastern Association of Regulatory Utility Commissioners 
        (Member since 1998, Chair 2003-2004).

        Kernels and Kreme (ice cream and popcorn store), Partner, 2003-
        2005.

        Indigo Holding Company (real estate), President, 2001-present.

    12. Please list each membership you have had during the past 10 
years or currently hold with any civic, social, charitable, 
educational, political, professional, fraternal, benevolent or 
religious organization, private club, or other membership organization. 
Include dates of membership and any positions you have held with any 
organization. Please note whether any such club or organization 
restricts membership on the basis of sex, race, color, religion, 
national origin, age, or handicap.

        The Palmetto Project, Trustee, Secretary/Treasurer, 2004-
        present.

        Reid House of Christian Service, Board Member, 2001-2008.

        Edventure Children's Museum, Board Member, 1999-2005.

        National Association of Regulatory Utility Commissioners, 1998-
        present.

        Southeastern Association of Regulatory Utility Commissioners, 
        1998-present.

        The Links, Inc. (Charleston), 1999-present, women only.

        The NAACP (Charleston), Life Member, 2001.

        SC Coalition for Black Voter Participation, Life Member, 2002.

        YWCA of Greater Charleston, 2005-present, women 
        only<SUP>*</SUP>
---------------------------------------------------------------------------
    \*\ 2007--Roard membership restriction lifted.

---------------------------------------------------------------------------
        Charleston County Democratic Women, 1985-2004.

        Morris Brown AME Church, 1968-present.

        United Negro College Fund, SC campaign, 1986-1999.

    13. Have you ever been a candidate for and/or held a public office 
(elected, non-elected, or appointed)? If so, indicate whether any 
campaign has any outstanding debt, the amount, and whether you are 
personally liable for that debt.
    I have been elected four times (first in 1998, then in 2002, 2004, 
2006 by the General Assembly) to the South Carolina Public Service 
Commission, no debt.
    14. Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $500 or more for the past 10 years. Also list all offices you 
have held with, and services rendered to, a state or national political 
party or election committee during the same period.

        Friends of James E. Clyburn, $1,000, 2006.

    15. List all scholarships, fellowships, honorary degrees, honorary 
society memberships, military medals, and any other special recognition 
for outstanding service or achievements.

        Honored by Omega Psi Phi, Delta Sigma Theta, Phi Beta Sigma, 
        Sigma Gamma Rho Fraternities and Sororities for business and/or 
        community contributions.

        Recognized for outstanding community service by Mt. Zion, 
        Morris Brown and St. Luke AME Churches, The Charleston Chapter 
        of The Islamic Society, Arabian Temple and Court, National 
        Council of Negro Women, United Negro College Fund, The NAACP, 
        The Association for the Study of African American Life and 
        History (Charleston), and The Moja Arts Festival.

        Received awards from the Utilities Market Access Partnership 
        (NARUC program), Columbia Urban League (2006 Lincoln C. Jenkins 
        Award), and Terry School of Business (2006 James C. Bonbright 
        Award) for professional distinction.

        Graduated from the South Carolina Executive Institute.

    16. Please list each book, article, column, or publication you have 
authored, individually or with others. Also list any speeches that you 
have given on topics relevant to the position for which you have been 
nominated. Do not attach copies of these publications unless otherwise 
instructed.
    While I have not authored any books, columns or publications, I 
have made a number of presentations relevant to the position for which 
I have been nominated:

    National Foundation of Women Legislators, ``Transformative Power of 
Broadband: Key Issues During Challenging Times,'' November 23, 2008, 
Sarasota, FL.

        Provided regulator's perspective on how to increase the 
        awareness for the need of broadband services and how this 
        technology can serve as part of the solution to the problems 
        that affect women's lives.

    KMB Video Conference, May 7-8, 2007, St. Pete Beach, FL.

        Moderated a panel on Universal broadband, and was a panelist on 
        the ``regulatory shill'' session that focused on the influence 
        of state legislatures Service Fund.

    CTIA Wireless, I.T. & Entertainment, 2006, Los Angeles, CA.

        Served on a panel with other state regulators focusing on the 
        benefits and perils of competition for consumers.

    Emerging Issues Policy Forum, ``Innovation and Convergence in the 
Communication Industry,'' May 7-10, 2006, Amelia Island, FL.

        State and Federal regulators and industry leaders from across 
        the Nation discussed the future of regulatory policies and 
        investment practices in the telecommunications industry.

    CTIA Wireless, I.T. & Entertainment, 2005, San Francisco, CA.

        Commissioners from across the country gave their perspectives 
        on wireless broadband deployment and uptake, how their states 
        attract investment to this sector, taxes, inter-carrier 
        compensation, and the Universal Service Fund.

    17. Please identify each instance in which you have testified 
orally or in writing before Congress in a governmental or non-
governmental capacity and specify the date and subject matter of each 
testimony.
    I have never testified before Congress. I did, however, make two 
presentations before Members of the Congressional Black Caucus in 2001 
and 2003 on behalf of the Utility Market Access Partnership. This 
partnership is a National Association of Utility Commissioner 
sanctioned program that seeks to level the playing field for those 
wishing to do business with investor-owned utilities.
    18. Given the current mission, major programs, and major 
operational objectives of the department/agency to which you have been 
nominated, what in your background or employment experience do you 
believe affirmatively qualifies you for appointment to the position for 
which you have been nominated, and why do you wish to serve in that 
position?
    For 11 years, I have had the opportunity to represent the Sixth 
Congressional District as a member of the Public Service Commission of 
South Carolina--a state agency which regulates investor-owned utilities 
that provide essential services for citizens living and working in the 
``Palmetto State.'' On a daily basis, this position grants me an ``on 
the ground floor view'' of how decisions made on the Federal level 
impact persons and enterprises at the state and local levels. This 
experience has made me keenly aware that decisions and policies enacted 
in Washington not only have to be fair, balanced and for the greater 
good, but also practical, deliverable and pragmatic.
    As a State Utilities Commissioner, I interact daily with lawmakers, 
``ratepayers'', investors, and Commissioners in other states and I look 
forward to bringing this perspective to the FCC if confirmed as a 
Commissioner.
    19. What do you believe are your responsibilities, if confirmed, to 
ensure that the department/agency has proper management and accounting 
controls, and what experience do you have in managing a large 
organization?
    To the extent possible, I look forward to working with the Chairman 
to ensure proper management and accounting controls. As chair of the 
South Carolina Public Service Commission from 2002-2004, I managed a 
staff of about 80 people. I saw it as my duty and primary 
responsibility to foster an environment where there was transparency, 
open lines of communication, proper training and clearly stated 
objectives and expectations. If confirmed, I look forward to being a 
member of a team which encourages, motivates and leads by example.
    20. What do you believe to be the top three challenges facing the 
department/agency, and why?

        The National Broadband Plan

        The Federal Communications Commission must produce to Congress 
        a national broadband plan by February 2010. Not only must the 
        plan set the stage for the manner in which we will achieve the 
        goals of high-speed affordable broadband for all Americans, but 
        also the process itself by which the plan is developed is 
        essential. In order to produce a comprehensive plan that 
        represents the views of all stakeholders, the Commission must 
        conduct the process in an open, transparent and inclusive 
        manner.

        Universal Service Fund Reform

        The Universal Service Fund has been an incredible tool for 
        bringing voice service to nearly every American--from the 
        highest populated to the most rural areas of the country. With 
        its successes, however, have come a number of challenges, and 
        many agree that the time has come for a serious evaluation of 
        the Fund's operation. I believe that as we look to reform the 
        USF, the FCC must have an open and transparent process that 
        encourages input from all corners of the Nation. Moreover, the 
        FCC must be thoughtful about the manner in which it goes about 
        any such reform, so that we preserve the great benefits the 
        Fund has yielded while making the necessary improvements.

        Engaging Consumers

        Following the delay of the transition to digital television, 
        the FCC did its best to transform itself into a consumer-
        focused agency. From what I understand, the results were 
        impressive and the Commission staff emerged with a renewed 
        sense of purpose. I believe that this experience should serve 
        as a platform for other initiatives that enable the Commission 
        to engage directly with consumers, understand their shared 
        concerns and develop ways in which it can address those issues 
        effectively.
                   b. potential conflicts of interest
    1. Describe all financial arrangements, deferred compensation 
agreements, and other continuing dealings with business associates, 
clients, or customers. Please include information related to retirement 
accounts.
    I am enrolled in the standard 401K program and at present, only 
have the state retirement and standard deferred compensation/simple 
interest bearing accounts.
    2. Do you have any commitments or agreements, formal or informal, 
to maintain employment, affiliation, or practice with any business, 
association or other organization during your appointment? If so, 
please explain: No.
    3. Indicate any investments, obligations, liabilities, or other 
relationships which could involve potential conflicts of interest in 
the position to which you have been nominated.
    In connection with the nomination process, I have consulted with 
the Office of Government Ethics and the FCC's designated agency ethics 
official to identify potential conflicts of interest. Any potential 
conflicts of interest will be resolved in accordance with the terms of 
an ethics agreement that I have entered into with the Commission's 
designated agency ethics official and that has been provided to this 
Committee. I am not aware of any other potential conflicts of interest.
    4. Describe any business relationship, dealing, or financial 
transaction which you have had during the last 10 years, whether for 
yourself, on behalf of a client, or acting as an agent, that could in 
any way constitute or result in a possible conflict of interest in the 
position to which you have been nominated.
    In connection with the nomination process, I have consulted with 
the Office of Government Ethics and the FCC's designated agency ethics 
official to identify potential conflicts of interest. Any potential 
conflicts of interest will be resolved in accordance with the terms of 
an ethics agreement that 1 have entered into with the Commission's 
designated agency ethics official and that has been provided to this 
Committee. I am not aware of any other potential conflicts of interest.
    5. Describe any activity during the past 10 years in which you have 
been engaged for the purpose of directly or indirectly influencing the 
passage, defeat, or modification of any legislation or affecting the 
administration and execution of law or public policy.
    As a State Commissioner, I have been a resource to lawmakers in 
South Carolina on consumer issues and the economic impact of key 
regulatory decision-making.
    For just over 3 years, I have been the Chair of the Washington 
Action Program for NARUC (The National Association of Regulatory 
Utility Commissioners). The association as a whole has been active in 
many jurisdictional/key legislative matters including the Lieberman-
Warner Climate Change, Railroad Competition and Service Improvement Act 
of 2007, Caller ID Spoofing, VOIP E911 Service, Internet Tax Freedom 
Act, Wireless Preemption, Cost Recovery Mechanism in RPS, and LIHEAP 
funding legislation. NARUC also supported S. 1492--particularly the 
provision to establish state grants for state level broadband data 
collection--and H.R. 537--private activity bonds to replace aging and 
deteriorating water infrastructure.
    6. Explain how you will resolve any potential conflict of interest, 
including any that may be disclosed by your responses to the above 
items.
    In connection with the nomination process, I have consulted with 
the Office of Government Ethics and the FCC's designated agency ethics 
official to identify potential conflicts of interest. Any potential 
conflicts of interest will be resolved in accordance with the terms of 
an ethics agreement that I have entered into with the Commission's 
designated agency ethics official and that has been provided to this 
Committee.
                            c. legal matters
    1. Have you ever been disciplined or cited for a breach of ethics 
by, or been the subject of a complaint to any court, administrative 
agency, professional association, disciplinary committee, or other 
professional group? If so, please explain: No.
    2. Have you ever been investigated, arrested, charged, or held by 
any Federal, State, or other law enforcement authority of any Federal, 
State, county, or municipal entity, other than for a minor traffic 
offense? If so, please explain: No.
    3. Have you or any business of which you are or were an officer 
ever been involved as a party in an administrative agency proceeding or 
civil litigation? If so, please explain.
    In Nuxoc Communications v. Public Service Commission (2005), I was 
sued in my official capacity along with the other Commissioners on the 
Public Service Commission. The plaintiff challenged two final orders in 
which we had ruled against it. In 2009, the district court for the 
District of South Carolina ruled in our favor.
    4. Have you ever been convicted (including pleas of guilty or nolo 
contendere) of any criminal violation other than a minor traffic 
offense? If so, please explain: No.
    5. Have you ever been accused, formally or informally, of sexual 
harassment or discrimination on the basis of sex, race, religion, or 
any other basis? If so, please explain: No.
    6. Please advise the Committee of any additional information, 
favorable or unfavorable, which you feel should be disclosed in 
connection with your nomination: None.
                     d. relationship with committee
    1. Will you ensure that your department/agency complies with 
deadlines for information set by Congressional committees? Yes.
    2. Will you ensure that your department/agency does whatever it can 
to protect Congressional witnesses and whistle blowers from reprisal 
for their testimony and disclosures? Yes.
    3. Will you cooperate in providing the Committee with requested 
witnesses, including technical experts and career employees, with 
firsthand knowledge of matters of interest to the Committee? Yes.
    4. Are you willing to appear and testify before any duly 
constituted committee of the Congress on such occasions as you may be 
reasonably requested to do so? Yes.
                                 ______
                                 
                      resume of mignon l. clyburn
Education
    1980-1984, University of South Carolina, Columbia, SC.

        B.S. Business Administration; Banking & Finance and Economics.

    1976-1980, W. J. Keenan High School, Columbia, SC.

        General Diploma.
Awards Received

        Community Service/Business Awards from: Southeastern Energy 
        Conference--Terry School of Business, The Columbia Urban 
        League, Omega Psi Phi and Phi Beta Sigma Fraternities. Delta 
        Sigma Theta and Sigma Gamma Rho Sororities, Mt. Zion AME 
        Church, Charleston Chapters of the Islamic Society, Arabian 
        Temple and Court, NCNW, UNCF, Moja Arts Festival, Morris Brown 
        AME Church and the NAACP.
Work experience
    2002-2004, Chair, South Carolina Public Service Commission.

    1998-present, Commissioner, Sixth District, Columbia, SC.

        Assist in regulating investor or privately-owned electric, gas, 
        water and sewerage companies, as well as all telephone and 
        telegraph companies inside of South Carolina. In addition, 
        oversee certain practices with regard to for-hire motor 
        carriers, along with railroad, railway and radio common 
        carriers.

    1984-1998, Publisher, General Manager, The Coastal Times, 
Charleston, SC.

        Worked as editor, delivery person, General Manager and 
        Publisher for an African American-oriented weekly newspaper.
Community Activities
    Serves on Boards of: Trident Technical College Foundation, The 
Palmetto Project (Secretary/Treasurer), Columbia College Board of 
Visitors, SC Cancer Center Board and is a member of Links, Inc.; Served 
on the Boards of: YWCA of Greater Charleston (President) Edventure 
Children's Museum, Reid House of Christian Service, The Trident Urban 
League and Trident United Way as well as Charleston County Democratic 
Women (President); City of Charleston Site and Design, Charleston Area 
Arts Council; Women in Transition, and United Way Allocations Board; Is 
a member of the City of Columbia Reform and Restructuring Commission, 
Common Ground School Improvement Committee (SC Education Oversight 
Committee) and SC Great Friends to Kids (Edventure).
Professional Memberships
    Southeastern (past Chair) and National Association of Regulatory 
Utility Commissioners (Utility Market Access Partnership, Audit 
Committee, Foundation Board Member, Legislative Task Force and Co-Chair 
of Washington Action Committee); SC Energy Advisory Council; served as 
President of the Black Women Entrepreneurs, past Treasurer of the SC 
Coastal Association of Black Journalists; and a graduate of the South 
Carolina Executive Institute.

    Senator Begich. Thank you very much, Ms. Clyburn.
    If we could have Ms. Baker?

 STATEMENT OF MEREDITH ATTWELL BAKER, COMMISSIONER-DESIGNATE, 
               FEDERAL COMMUNICATIONS COMMISSION

    Ms. Baker. Thank you very much. Good afternoon, Senator 
Begich, Ranking Member Hutchison, and distinguished Members of 
the Committee. I am going to shorten my remarks a bit and ask 
that my full statement be entered into the record.
    Senator Begich. It will be submitted.
    Ms. Baker. Thank you very much for the opportunity to 
appear before you today. It is a tremendous honor to be 
nominated to serve as Commissioner of the FCC and I am deeply 
grateful for this opportunity. I look forward to answering your 
questions and earning your support for my nomination.
    I would like to start by introducing my husband, Jamie 
Baker. Every day I am thankful for the foundation of love and 
support that he provides. I am also pleased to be able to 
introduce my parents, Kirby and Nancy Attwell from Houston, 
Texas. As a successful businessman, my father has shown me the 
importance of hard work, determination, and common sense. My 
mother, who worked as a fundraiser for public television and as 
a homemaker, has shown me how to live a life full of 
creativity, kindness and zest.
    I have two of my four stepdaughters here, Hallie and Mary 
Stuart. Jackie is at sleep-away camp and Rosemary's working, 
which is a good thing.
    [Laughter.]
    Ms. Baker. And my brother, Kirby, is also here from 
Houston. I am also pleased to sit next to Mignon Clyburn. It is 
a real privilege to get to know such a talented and dedicated 
public official. And I would also like to thank the current FCC 
Commissioners: Chairman Julius Genachowski, Commissioner 
Michael Copps, and Commissioner Robert McDowell, who is here in 
the audience for which I am also grateful. If confirmed, I look 
forward to working together on these important issues.
    Now, Chairman Genachowski, who is off to a great start, 
gave an inspirational speech to the FCC staff on his first day. 
He stated that the promise of technology has never been 
brighter, and consequently the obligations of the Commission 
have never been greater. I share that view. The FCC holds the 
keys to unleashing the power of broadband, the new media 
landscape and public safety interoperability. That 
responsibility is challenging, but the rewards will truly make 
a difference in the life and future of every American.
    According to one metric, the communications industry is 1/6 
of our economy upon which the rest of it runs. A 21st Century 
communications infrastructure is essential for restoring 
sustained economic growth, opportunity and prosperity. Congress 
has directed the FCC to develop and implement a national 
broadband plan. This directive holds great promise for our 
Nation. Not only does the future of our children's education 
depend upon it, but so does the next generation of health care, 
smart energy grid development, and public safety 
interoperability.
    The FCC will play an important role in making sure that the 
right regulatory environment exists to incent companies to 
build out infrastructure faster, to reward innovation and 
investment, and to encourage competition so that American 
consumers have access to and can afford the world's most 
advanced telecommunications services.
    I believe that we can reap great benefits from a more 
efficient, transparent and flexible spectrum policy. The 
Spectrum Inventory bill that this Committee marked up last week 
shows important leadership and is a first step to increasing 
wireless broadband use in innovative ways such as secondary 
markets, leasing, and test beds.
    Improving the management of Federal programs such as 
universal service must round out this national broadband plan.
    I was fortunate enough to work very closely with many of 
you and your staffs in my former role at NTIA on the recent 
transition to digital television. The 700 MHz spectrum band 
that is transitioning out has been freed for the next 
generation of American wireless services and public safety 
interoperability. I worked very hard to make this unique coupon 
program a success in difficult circumstances. Although the 
transition was aided by additional time and resources for 
coupon distribution and call centers, I am proud of NTIA's hard 
work throughout the program. I also appreciate the work that 
Congress did to ensure the success of this transition.
    In the past few weeks, I had the pleasure of meeting many 
of you--many members of this Committee. And I want to thank you 
for taking the time out of your busy schedules to meet with me 
and share your thoughts on communications policy and the future 
of the FCC.
    Whether it's the Fairness Doctrine, indecency and violence 
in broadcast programming, low power FM, WWOR, broadband 
delivered by satellites in Alaska or the national broadband 
plan, I have learned a great deal about your respective views 
and the range of issues that affect your states and 
constituents. If confirmed, I look forward to continuing our 
dialogue and to working together for the benefit of American 
consumers.
    The FCC has a profound impact on what American people see, 
hear, and read. Healthy competition can benefit consumers, and 
in many cases can reduce the need for regulation. However, the 
regulatory mandate of the FCC will remain an important one as 
our society continues to experience technological advancement 
in the communications sector. If confirmed, I would take this 
responsibility very seriously while working to promote the 
principles of investment, innovation, and competition for the 
benefit of all Americans. Thank you again for the opportunity 
to appear before you, and I look forward to taking your 
questions.
    [The prepared statement and biographical information of Ms. 
Baker follows:]

 Prepared Statement of Meredith Attwell Baker, Commissioner-Designate, 
                   Federal Communications Commission
    Good afternoon. Chairman Rockefeller, Ranking Member Hutchison and 
distinguished Members of the Committee, thank you for the opportunity 
to appear before you today. It is a tremendous honor to have been 
nominated by President Obama to serve as a Commissioner of the Federal 
Communications Commission (FCC), and I am deeply grateful for this 
opportunity. I look forward to answering your questions and to earning 
your support for my nomination.
    I would like to start by introducing my husband, Jamie Baker. 
Everyday I am thankful for the foundation of love and support he 
provides. I am also pleased to be able to introduce my parents, Kirby 
and Nancy Attwell, who are here from Houston. As a successful 
businessman, my father has shown me the importance of hard work, 
determination and common sense. My mother, who worked as a fundraiser 
for public television and as a homemaker, has shown me how to live a 
life full of creativity, kindness and zest. I have two of my four 
stepdaughters here--Hallie and Mary Stuart. Jackie is at sleep away 
camp and Rosemary is in New York. And my brother, Kirby, is here from 
Houston.
    I am also pleased to be sitting next to Mignon Clyburn. It has been 
a privilege to get to know such a talented and dedicated public 
official. If confirmed, I look forward to serving with Commissioner 
Clyburn and the current FCC Commissioners--Chairman Julius Genachowski, 
Commissioner Michael Copps, and Commissioner Robert McDowell.
    Chairman Genachowski, who is off to a great start at the FCC, gave 
an inspirational introductory speech to the FCC staff on the day of his 
arrival. He stated that the promise of technology has never been 
brighter and consequently, the obligations of the Commission have never 
been greater. I share that view. The FCC holds the keys to unleashing 
the power of broadband, the new media landscape and true public safety 
interoperability. That responsibility is challenging but the rewards 
will truly make a difference in the life and future of every American.
    According to one metric, the communications industry constitutes 
one-sixth of our economy, and serves as a foundation for the rest. A 
21st Century communications infrastructure is essential for restoring 
sustained economic growth, opportunity and prosperity. Congress has 
directed the FCC to develop and implement a National Broadband Plan. 
This directive holds great promise for our Nation. Not only do many 
aspects of our children's education and opportunities for life-long 
learning depend on this directive, but so to does the next generation 
of health care delivery, smart energy grid development, and public 
safety interoperability. The FCC will play an important role in making 
sure that the right regulatory environment exists to incent companies 
to build out infrastructure faster, to reward innovation and 
investment, and to encourage competition so that American consumers 
have access to, and can afford, the world's most advanced 
telecommunications services.
    I believe we can reap great benefits from a spectrum policy that 
unlocks the value of the public airwaves in more efficient, transparent 
and flexible ways. The Spectrum Inventory bill that this Committee 
marked up last week, shows important leadership and is a first step to 
increasing wireless broadband use in innovative ways such as secondary 
markets, leasing, and testbeds.
    Improving the effective and efficient management of Federal 
programs such as universal service must round this National Broadband 
Plan. In this time of profound economic challenge, we need to ensure 
that the communications sector continues to thrive and contributes 
meaningfully to an economic recovery, both in the near and long term.
    I was fortunate to work closely with many of you and your staffs in 
my former role at the National Telecommunications and Information 
Administration (NTIA) on the recent transition to digital television. 
The 700 MHz spectrum band that this transition has freed makes way for 
the next generation of American wireless services and public safety 
interoperability. I worked very hard to make the unique coupon program 
administered by NTIA a success in difficult circumstances. Although the 
transition was aided by additional time and resources for coupon 
distribution and call centers, I am proud of NTIA's hard work 
throughout the program. I also appreciate the work that Congress did to 
ensure the success of the transition.
    In the past weeks, I have had the pleasure of meeting with many of 
the members of this Committee. And I thank you for taking time out of 
your busy schedules to meet with me and share your thoughts on 
communications policy and the future of the FCC. Whether it is 
discussion of the Fairness Doctrine, indecency and violence in 
broadcast programming, low power FM, WWOR, satellites in Alaska or 
broadband in the Navajo Nation, I have learned a great deal about your 
respective views on the range of issues that affect your states and 
constituents. If confirmed, I look forward to continuing our dialogue, 
to consulting closely with this Committee and with your other 
colleagues in Congress, and to working effectively together for the 
benefit of American consumers.
    The FCC has a profound impact on what the American people see, hear 
and read. Healthy competition can benefit consumers and, in many cases, 
can reduce the need for regulation. However, the regulatory mandate of 
the FCC will remain an important one as our society continues to 
experience technological advancement in the communications sector. If 
confirmed, I would take this responsibility very seriously while 
working to promote the principles of investment, innovation and 
competition for the benefit of all Americans. Thank you again for the 
opportunity to appear before you, and I look forward to answering your 
questions.
                                 ______
                                 
                      a. biographical information
    1. Name (Include any former names or nicknames used): Meredith 
Attwell Baker; maiden name: Meredith McAshan Attwell.
    2. Position to which nominated: Commissioner, Federal 
Communications Commission.
    3. Date of Nomination: June 25, 2009.
    4. Address (List current place of residence and office addresses):

        Residence: Information not released to the public.

        Office: 1486 Evans Farm Drive, McLean, VA 22101.

    5. Date and Place of Birth: May 31, 1968; Houston, Texas.
    6. Provide the name, position, and place of employment for your 
spouse (if married) and the names and ages of your children (including 
stepchildren and children by a previous marriage).

        James Addison Baker IV (spouse)--Partner in Charge of the 
        Washington, D.C. office, Baker Botts L.L.P.

        Children: Rosemary Elise Baker, 25; Hallie Anderson Baker, 23; 
        Mary Stuart Clark Baker, 19; Virginia Graeme Baker, deceased; 
        Jaqueline Addison Baker, 14.

    7. List all college and graduate degrees. Provide year and school 
attended.

        Washington and Lee University, B.A., 1986-1990.
        University of Houston Law School, J.D., 1992-1994.

    8. List all post-undergraduate employment, and highlight all 
management-level jobs held and any non-managerial jobs that relate to 
the position for which you are nominated.

        U.S. Department of State, Personal Assistant to the Assistant 
        Secretary for Legislative Affairs (1990-1991).

        U.S. Department of State, Legislative Management Officer (non-
        managerial, relevant) (1991-1992).

        DeLange & Hudspeth, L.L.P. , Associate (1994-1997).

        Cellular Telecommunications and Internet Association, Director 
        of Congressional Affairs (non-managerial, relevant) (1998-
        2000).

        Covad Communications, Senior Counsel (managerial, relevant) 
        (2000-2002).

        Williams Mullen Strategies, Vice President (non-managerial, 
        relevant) (2002-2003).

        U.S. Department of Commerce, Senior Policy Advisory to the 
        Assistant Secretary for Communications and Information (non-
        managerial, relevant) (2004-2006).

        The White House, Acting Assistant Director, Office of Science 
        and Technology Policy (non-managerial, relevant) (2006).

        U.S. Department of Commerce, Acting Associate Administrator, 
        Office of International Affairs (managerial, relevant) (2007).

        U.S. Department of Commerce, Deputy Assistant Secretary for 
        Communications and Information (managerial, relevant) (2007).

        U.S. Department of Commerce, Acting Assistant Secretary for 
        Communications and Information (managerial, relevant) (2007-
        2009).

    9. Attach a copy of your resume. A copy is attached.
    10. List any advisory, consultative, honorary, or other part-time 
service or positions with Federal, State, or local governments, other 
than those listed above, within the last 5 years: None.
    11. List all positions held as an officer, director, trustee, 
partner, proprietor, agent, representative, or consultant of any 
corporation, company, firm, partnership, or other business, enterprise, 
educational, or other institution within the last 5 years.

        Board Member, United States Telecommunications Training 
        Institute (2007-2009) (Board seat is part of responsibilities 
        of the Assistant Secretary of NTIA).

    12. Please list each membership you have had during the past 10 
years or currently hold with any civic, social, charitable, 
educational, political, professional, fraternal, benevolent or 
religious organization, private club, or other membership organization. 
Include dates of membership and any positions you have held with any 
organization. Please note whether any such club or organization 
restricts membership on the basis of sex, race, color, religion, 
national origin, age, or handicap.

        Texas Bar Association (1995-present), No restriction.

        Junior League of Houston/Washington, D.C. (1993-2001) Transfer 
        Chairman, Female Only.

        Woodmore Country Club (2000-2005), No restriction.

        Decade Society (1999-2003), No restriction.

        Federal Communications Bar Association (2004-present), No 
        restriction.

        Gibson Island Club (2007-present), No restriction.

    13. Have you ever been a candidate for and/or held a public office 
(elected, non-elected, or appointed)? If so, indicate whether any 
campaign has any outstanding debt, the amount, and whether you are 
personally liable for that debt.
    I was appointed by the President as a Schedule C to the positions 
of: U.S. Department of State, Personal Assistant to the Assistant 
Secretary of Legislative Affairs (1990) and Legislative Management 
Officer (1991); and U.S. Department of Commerce, Senior Policy Advisor 
to the Assistant Secretary for Communications and Information (2004) 
and Deputy Assistant Secretary of Commerce for Communications and 
Information.
    14.Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $500 or more for the past 10 years. Also list all offices you 
have held with, and services rendered to, a state or national political 
party or election committee during the same period.

        6/29/01--Rep. Chris Cannon ($760).

        9/18/03--Rep. John Carter ($500).

        4/12/04--George W. Bush ($1,000).

        9/18/08--John McCain ($2,300).

        I volunteered in October 2000 in Louisiana for the Republican 
        National Committee.

        I volunteered in November 2000 in Florida for the Republican 
        National Committee.

        I volunteered in October 2002 in Florida for the Republican 
        Party of Florida.

        I volunteered in October 2004 in Ohio for the Republican 
        National Committee.

    15. List all scholarships, fellowships, honorary degrees, honorary 
society memberships, military medals, and any other special recognition 
for outstanding service or achievements.

        Consumer Electronics Association Academy of Digital Television 
        Pioneers (2007).

        National Association of Broadcasters Appreciation Award (2007).

        Outstanding Leadership--World Radio Conference 2007.

    16. Please list each book, article, column, or publication you have 
authored, individually or with others. Also list any speeches that you 
have given on topics relevant to the position for which you have been 
nominated. Do not attach copies of these publications unless otherwise 
instructed.

        September 17, 2004--South Dakota Public Utilities Commission 
        Conference Speech: ``Everything You Always Wanted to Know about 
        Wireless Technology,'' Spearfish, SD.

        February 2, 2005--International Rights of Way Association: 
        Improving Federal Rights of Way Management to Spur Broadband 
        Development, Washington, D.C.

        June 7, 2005--Southeastern Association of Regulatory Utility 
        Commissioners Annual Conference: Promoting Broadband Deployment 
        in Rural America, Covington, KY.

        January 2006--International Rights of Way Association Keynote, 
        Washington, D.C.

        October 17, 2007--3G Americas Conference Keynote: International 
        Growth of Wireless Technologies and Markets, Washington, D.C.

        January 15, 2008--Lehman Bros. Conference, Remarks on the TV 
        Converter Box Coupon Program, Washington, D.C.

        January 21, 2008--Television Operators Caucus, Remarks on 
        NTIA's DTV Transition Planning and Procedures, Washington, D.C.

        January 24, 2008--Federal Communications Bar Association, 9th 
        Annual Communication Law Seminar, Keynote Speech: Welcome to 
        Communications Law, Washington, D.C.

        January 29, 2008--Interview by About.com on TV Converter Box 
        Coupon Program, Washington, D.C.

        January 30, 2008--Associated Press interview on Networked 
        Nation: Broadband in America report, Washington, D.C.

        January 31, 2008--Press Tele-Briefing on release of Networked 
        Nation: Broadband in America report, Washington, D.C.

        February 13, 2008--Testimony on the DTV Transition and the TV 
        Converter Box Coupon Program before the House Subcommittee on 
        Telecommunications and the Internet, Washington, D.C.

        February 15, 2008--Progress and Freedom Foundation 
        Congressional Seminar, Countdown to DTV: Making the 2009 
        Deadline Work, Opening Remarks, Washington, D.C.

        February 18, 2008--Interview on C-SPAN ``The Communicators'' 
        series, Washington, D.C.

        February 19, 2008--Interview with Fox 5 Morning News on TV 
        Converter Box Coupon Program, Washington, D.C.

        February 19, 2008--Washington Post online chat on the DTV 
        Transition and TV Converter Box Coupon Program, Washington, 
        D.C.

        February 19, 2008--Federal Communications Bar Association 
        Seminar Panel, DTV Transition: Only One Year to Go, Washington, 
        D.C.

        February 20, 2008--Coalition Against Domain Name Abuse Speech: 
        Perspectives on Internet Governance Policy, Washington, D.C.

        March 3, 2008--Interview with ABC News on DTV Transition and TV 
        Converter Box Coupon Program, Washington, D.C.

        March 5, 2008--Interview with Broadcasting and Cable magazine 
        on DTV Transition and TV Converter Box Coupon Program, 
        Washington, D.C.

        March 19, 2008--Internet Video Policy Symposium, Luncheon 
        Keynote, Washington, D.C.

        April 1, 2008--CTIA Wireless 2008, Plenary--U.S. Wireless and 
        the World Economy Panel, Las Vegas, NV.

        April 3, 2008--Consumer Electronics Association Washington 
        Forum Keynote, Washington, D.C.

        April 8, 2008--Testimony on the DTV Transition and the TV 
        Converter Box Coupon Program before the Senate Committee on 
        Commerce, Science, and Transportation, Washington, D.C.

        April 14, 2008--Press Conference at National Association of 
        Broadcasters Show on DTV Transition and TV Converter Box Coupon 
        Program, Las Vegas, NV.

        April 17, 2008--Massachusetts Technology Leadership Council 
        Spring Conference: China, India & Russia, Our Partners in the 
        New Global Economy, ``A Strong Communications Infrastructure is 
        Key to Economic Success,'' Boston, MA.

        April 24, 2008--APEC TEL Ministerial Meeting, Speech: 
        ``Challenges and Strategies to Promote Universal Service,'' 
        Bangkok Thailand.

        May 9, 2008--NCTA's 57th Annual Convention and International 
        Exposition, Public Policy Luncheon Panel, New Orleans, LA.

        May 14, 2008--Remarks, NTIA 30th Anniversary Celebration, 
        Washington, D.C.

        June 2008--Article in Connect World-North America magazine: On 
        the Front Lines: Shaping Wireless Policy.

        June 18, 2008--Testimony on the DTV Transition and the TV 
        Converter Box Coupon Program before the House Subcommittee on 
        Government Management, Organization, and Procurement, Brooklyn, 
        NY.

        July 15, 2008--Presentation on TV Converter Box Coupon Program, 
        Self Help for the Elderly, San Francisco, CA.

        July 22, 2008--National Association of Regulatory Utility 
        Commissioners (NARUC), Summer Meetings, Luncheon Speech: 
        Embracing the Future in Telecommunications, Portland, OR.

        August 17, 2008--Progress and Freedom Foundation Aspen Summit, 
        Speech: Unlocking Innovation: Has the Key Been Misplaced? 
        Aspen, CO.

        September 2008--Matte Release, Apply. Buy. Try. Consumers Urged 
        to Prepare for the Switch to Digital TV before the end of the 
        year; Released in multiple newspapers including The Triangle 
        Tribune, December 7, 2008.

        September 8, 2008--Remarks at Event Marking DTV Transition in 
        Wilmington, North Carolina, Designated Market Area, Wilmington, 
        NC.

        September 16, 2008--Testimony on the DTV Transition and the TV 
        Converter Box Coupon Program before the House Subcommittee on 
        Telecommunications and the Internet, Washington, D.C.

        September 18, 2008--LSI Spectrum Management Conference, 
        Spectrum Issues for the Next Administration and What to Expect 
        in Response Panel, Arlington, VA.

        September 22, 2008--Maximum Television Service 22nd Annual Fall 
        Television Conference, Keynote Speech, Washington, D.C.

        September 23, 2008--Testimony on the DTV Transition and the TV 
        Converter Box Coupon Program before the Senate Committee on 
        Commerce, Science, and Transportation, Washington, D.C.

        September 30, 2008--The Hill Op-Ed, Making the Switch from 
        Analog TV.

        October 7, 2008--French-EU Presidency Conference, Plenary 
        Session Keynote Speech: Internet of Things--Internet of the 
        Future: Challenges of International Cooperation, Nice, France.

        October 15, 2008--Texas Wireless Summit, Policy and Regulation 
        Panel, Austin, TX.

        October 15, 2008--Media Event on DTV Transition and TV 
        Converter Box Coupon Program at Radio Shack Headquarters, 
        Austin, TX.

        October 21, 2008--Luncheon Speaker, Digital Dialogue Forum, 
        Washington, D.C.

        October 29, 2008--Luncheon Remarks, Wilkinson, Barker, Knauer, 
        LLP, Washington, D.C.

        November 6, 2008--33rd Meeting of the Internet Corporation for 
        Assigned Names and Numbers (ICANN) Speech: Ten Years Out . . . 
        Celebrating Accomplishments and Preparing for New Challenges, 
        Cairo, Egypt.

        November 10, 2008--Satellite Media Tour on DTV Transition and 
        TV Converter Box Coupon Program, Washington, D.C.

        November 14, 2008--National Grange Annual Convention, Speech on 
        DTV Transition and TV Converter Box Coupon Program, Cromwell, 
        CT.

        November 20, 2008--Speech to The Media Institute's 
        Communication Forum: Embracing Change in the New Media 
        Landscape, Washington, D.C.

        December 3, 2008--Internet Governance Forum, Opening Ceremony, 
        Speech: The Importance of the Internet Governance Forum, 
        Hybderabad, India.

        January 2009--Twice.com/CES Show 2009, Positive Response Seen 
        to Converter Box Coupon Program.

        February 26, 2009--Catholic University of America Columbus 
        School of Law Communications Symposium Interference, Wireless 
        Innovation, Public Interest, Regulatory Response, Keynote 
        Speech, Washington, D.C.

    17. Please identify each instance in which you have testified 
orally or in writing before Congress in a governmental or non-
governmental capacity and specify the date and subject matter of each 
testimony.

        February 13, 2008--Testimony on the DTV Transition and the TV 
        Converter Box Coupon Program before the House Subcommittee on 
        Telecommunications and the Internet, Washington, D.C.

        April 8, 2008--Testimony on the DTV Transition and the TV 
        Converter Box Coupon Program before the Senate Committee on 
        Commerce, Science, and Transportation, Washington, D.C.

        June 18, 2008--Testimony on the DTV Transition and the TV 
        Converter Box Coupon Program before the House Subcommittee on 
        Government Management, Organization, and Procurement, Brooklyn, 
        NY.

        September 16, 2008--Testimony on the DTV Transition and the TV 
        Converter Box Coupon Program before the House Subcommittee on 
        Telecommunications and the Internet, Washington, D.C.

        September 23, 2008--Testimony on the DTV Transition and the TV 
        Converter Box Coupon Program before the Senate Committee on 
        Commerce, Science, and Transportation, Washington, D.C.

    18. Given the current mission, major programs, and major 
operational objectives of the department/agency to which you have been 
nominated, what in your background or employment experience do you 
believe affirmatively qualifies you for appointment to the position for 
which you have been nominated, and why do you wish to serve in that 
position?
    I have over 10 years experience working in the field of 
telecommunications and technology policy, and I would bring both public 
and private sector experience to the position. I worked at the Cellular 
Telecommunications and Internet Association, representing over 350 
member companies of wireless and equipment manufacturers. I worked at 
Covad Communications, the Nation's largest competitive DSL company. 
Most recently, I spent 5 years working at the National 
Telecommunications and Information Administration, Advisor to the 
President on matters of information and communications technology 
policy.
    I have legal, policy, and technical experience and expertise in the 
broad portfolio of the FCC--spectrum, wireless, wireline, media, 
homeland security and Internet issues. I have worked extensively on 
regulatory and legislative issues such as telecom reform, broadband, 
Internet governance, network management, public safety 
interoperability, cybersecurity, digital television transition, making 
spectrum use more efficient, global standards, and the new media 
landscape.
    I think these sectors will fuel the economic growth and the next 
generation of global prosperity, so it is imperative that the 
environment for this critical infrastructure flourishes. I believe that 
the coming years will bring continued convergence and integration of 
communications technologies that will enhance our lives, our economy 
and our Nation. I think that my experience and understanding of the 
multi-stakeholder challenges that will arise make me qualified to serve 
as an FCC Commissioner.
    19. What do you believe are your responsibilities, if confirmed, to 
ensure that the department/agency has proper management and accounting 
controls, and what experience do you have in managing a large 
organization?
    I believe in regular meetings and a positive, all-inclusive 
management style. I believe if staff feels part of a team, performance 
and productivity improve. Accounting controls are part of proper 
management and examples are set from the top down. My management 
experience includes: Acting Associate Administrator of the 
International Office at the NTIA, Deputy Assistant Secretary of NTIA 
and Acting Assistant Secretary at NTIA.
    For most of my tenure at NTIA, the full time employee headcount has 
been around 250 (100 under salary and 150 under reimbursable spectrum 
work), with an all accounts budget of $55 million. Under the programs 
assigned to NTIA under the Deficit Reduction Act of 2005, mainly the 
DTV coupon program and the Public Safety Interoperable Communications 
Grants, the total FY 2009 budget increased to almost $650 million (and 
about 280 FTEs). Additionally, NTIA offices are located in Main 
Commerce, an extension on New York Avenue, an offsite location and in 
Boulder, Colorado. I have experience managing a large organization with 
offices in multiple locations.
    20. What do you believe to be the top three challenges facing the 
department/agency, and why?
    I think the Commission has many challenges, which are also 
opportunities, in the coming months and years. I have a strong interest 
in making spectrum management more efficient, transparent and flexible. 
However, I think the most pressing issues are:

        National Strategy for Broadband--Broadband clearly holds the 
        promise for our children's improved education, our next 
        generation of healthcare, smart energy and true public safety 
        interoperability. It is important to incentivize companies to 
        build out faster speeds, to make sure it reaches all Americans 
        and is affordable. Congress has given the FCC a challenge, but 
        a real opportunity by requiring a National plan. The timeline 
        is short, the challenges to ensure that technology neutrality 
        and innovation are fostered are important, but the mission is 
        critical.

        Universal Service Reform--Universal Service reform is long 
        overdue. As wireline is moving toward wireless and it is all 
        moving to the Internet, broadband should be considered part of 
        a reformed USF. However, there must be restraint on the growth 
        to allow for its inclusion. Additionally, in these troubled 
        economic times, we must make sure that companies, including the 
        rural companies, agree to the solution and that revenue streams 
        are not taken away without a glide path.

        Public Safety Interoperability--A critical goal related to the 
        return of the broadcast spectrum is to establish a nationwide, 
        interoperable broadband wireless network for use by first 
        responders. The FCC sought to achieve this goal with a public/
        private partnership which would have required the winning 
        bidder of the commercial 700 MHz D Block license to partner 
        with the nationwide licensee of the public safety spectrum to 
        allow construction of a network that would have been used by 
        both public safety and the commercial users. However, the D 
        Block auction did not get a winning bid. The current economic 
        climate makes the question of how to move forward on this 
        critical issue more difficult. The FCC needs to look at all of 
        the options carefully to ensure that it finds the best way 
        forward for first responders to serve our country.
                   b. potential conflicts of interest
    1. Describe all financial arrangements, deferred compensation 
agreements, and other continuing dealings with business associates, 
clients, or customers. Please include information related to retirement 
accounts.
    Federal Government Employee's Thrift Savings Plan.
    2. Do you have any commitments or agreements, formal or informal, 
to maintain employment, affiliation, or practice with any business, 
association or other organization during your appointment? If so, 
please explain: None.
    3. Indicate any investments, obligations, liabilities, or other 
relationships which could involve potential conflicts of interest in 
the position to which you have been nominated.
    My husband, Jamie Baker, is the Partner in Charge of the 
Washington, D.C. office of the law firm Baker Botts, L.L.P. While they 
do not have a telecommunications regulatory practice, or a governmental 
affairs practice, there could be a situation where a conflict of 
interest might arise. If such a case were to arise, I would certainly 
consult with the General Counsel and immediately recuse myself as 
appropriate.
    4. Describe any business relationship, dealing, or financial 
transaction which you have had during the last 10 years, whether for 
yourself, on behalf of a client, or acting as an agent, that could in 
any way constitute or result in a possible conflict of interest in the 
position to which you have been nominated: None.
    5. Describe any activity during the past 10 years in which you have 
been engaged for the purpose of directly or indirectly influencing the 
passage, defeat, or modification of any legislation or affecting the 
administration and execution of law or public policy.

        From 1998-2000, I served as Director of Congressional Affairs 
        for the Cellular Telecommunications and Internet Association. 
        We sought to pass the anti-cellphone cloning legislation, to 
        make 9-1-1 a national number, and for number portability.

        From 2000-2002, I worked as the Senior Counsel to Covad 
        Communications, the Nation's largest competitive digital 
        subscriber line. We worked to ensure that access to legacy 
        phone company facilities would be available to competition.

        From 2002-2003, I worked as Vice President for Williams Mullen 
        Strategies. My main client continued to be working with Covad 
        Communications. I also worked for a partner's client, NewsCorp.

        From 2004-2009, I worked at the U.S. Department of Commerce at 
        the National Telecommunications and Information Administration. 
        As the policy advisor to the President on telecommunications 
        and technology issues, I worked on many issues of law and 
        public policy on the Hill, as well as, at the Federal 
        Communications Commission, the Department of Justice, the 
        Federal Trade Commission, and the Department of Homeland 
        Security. I advocated for the enactment of economic incentives 
        and a regulatory environment that would encourage innovation 
        and investment in new broadband technologies, such as: an 
        extension of the Internet tax moratorium, an economic security 
        package that would allow companies to speed depreciation 
        schedules for capital-intensive broadband equipment, a 
        permanent extension of the research and experimentation tax 
        credit, and an expanded budget for research and development. I 
        advocated treating like services similarly. I worked with 
        Congress to pass the Commercial Spectrum Enhancement Act. I 
        worked with Congress in the implementation of and changes to 
        the various grant programs given to NTIA in the Deficit 
        Reduction Act of 2005 including the Public Safety Interoperable 
        Communications Grant Program and the Digital Television 
        Converter Box Program.

    6. Explain how you will resolve any potential conflict of interest, 
including any that may be disclosed by your responses to the above 
items.
    I would defer to General Counsel's decision as to any conflict of 
interest and would recuse myself as appropriate.
                            c. legal matters
    1. Have you ever been disciplined or cited for a breach of ethics 
by, or been the subject of a complaint to any court, administrative 
agency, professional association, disciplinary committee, or other 
professional group? If so, please explain: No.
    2. Have you ever been investigated, arrested, charged, or held by 
any Federal, State, or other law enforcement authority of any Federal, 
State, county, or municipal entity, other than for a minor traffic 
offense? If so, please explain.
    In May 1987, I was arrested for a Driving Under the Influence in 
Lexington, Virginia. I received a six-month suspension of my drivers 
license.
    3. Have you or any business of which you are or were an officer 
ever been involved as a party in an administrative agency proceeding or 
civil litigation? If so, please explain.
    Civil Small Claims Court--Alexandria, Virginia (2007).
    My husband and I sued our decorator for specific performance or 
return of retainer when she left the country without completing the 
job. Settled. Eastern District of Louisiana--New Orleans (1994).
    I suffered a personal injury resulting from a drunk driver running 
over a crowd watching a parade. Insurance settlement.
    4. Have you ever been convicted (including pleas of guilty or nolo 
contendere) of any criminal violation other than a minor traffic 
offense? If so, please explain.
    In May 1987, I was arrested for a Driving Under the Influence in 
Lexington, Virginia. I received a six-month suspension of my drivers 
license.
    5. Have you ever been accused, formally or informally, of sexual 
harassment or discrimination on the basis of sex, race, religion, or 
any other basis? If so, please explain: No.
    6. Please advise the Committee of any additional information, 
favorable or unfavorable, which you feel should be disclosed in 
connection with your nomination: None.
                     d. relationship with committee
    1. Will you ensure that your department/agency complies with 
deadlines for information set by Congressional committees? Yes.
    2. Will you ensure that your department/agency does whatever it can 
to protect Congressional witnesses and whistle blowers from reprisal 
for their testimony and disclosures? Yes.
    3. Will you cooperate in providing the Committee with requested 
witnesses, including technical experts and career employees, with 
firsthand knowledge of matters of interest to the Committee? Yes.
    4. Are you willing to appear and testify before any duly 
constituted committee of the Congress on such occasions as you may be 
reasonably requested to do so? Yes.
                                 ______
                                 
                    resume of meredith attwell baker
Professional Experience
    United States Department of Commerce, Washington, D.C.--Acting 
Assistant Secretary of Commerce for Communications and Information/
Acting Administrator, National Telecommunications and Information 
Administration, 2007-2009.

        Serve as the President's principle advisor on domestic and 
        international information and communications technology issues. 
        Ensure efficient and effective management of Federal radio 
        spectrum, and oversee state-of-the-art telecommunications 
        research, engineering and planning.

        Spokesperson for the Administration on telecommunications and 
        technology. Interviewed by many major news outlet in the 
        country. Testified five times to Congressional committees. 
        Daily outreach to press and Congressional leaders.

        Provide leadership and management of $3.5 billion of Deficit 
        Reduction Act of 2005 Programs including the Digital Television 
        Converter Box Coupon Program and the Public Safety 
        Interoperable Communications Grants.

        Responsible for the underlying contracts of the Internet Domain 
        Name and Addressing System.

        Lead the Commerce Spectrum Advisory Committee of private sector 
        experts to develop recommendations to the Federal Government on 
        efficient spectrum management. Lead Policy Coordinating 
        Committee meetings when high level agency decisions on spectrum 
        issues were needed. Participated in JCCT and NSTAC meetings.

        Represent the United States on delegations to international 
        conferences regarding telecommunications and technology issues 
        involving governance, global competitiveness, cybersecurity, 
        development and standards, including: ITU, ICANN, IEEF, OECD, 
        APECTEL, WSIS, as well as other fora such as bilaterals.

    Deputy Assistant Secretary of Commerce for Communications and 
Information/Deputy Administrator, National Telecommunications and 
Information Administration, 2007.

        Responsible for day-to-day management of the agency. Manage all 
        capital, personnel and resources including spectrum management 
        for all Federal agencies and activities for digital transition 
        coupon program and interoperability programs. (FY 2009 budget, 
        all resources: 280 FTEs, $648 million).

        Provide comprehensive legal, and policy advice to the Secretary 
        of Commerce and the Executive Office of the President on all 
        matters of information and communications technology policy. 
        Work in direct collaboration with the White House including the 
        Office of the Vice President, Office of Management and Budget, 
        Office of Science and Technology Policy, the National Security 
        Council, and the National Economic Council to develop 
        Administration positions on complex telecommunications and 
        technology policies.

        Coordinate and communicate Administration positions to the 
        leadership of the Federal Communications Commission (FCC). 
        Present Administration positions to Members of Congress and 
        their staff.

    Acting Associate Administrator, Office of International Policy, 
2007.

        Formulate and promote national policies in multilateral, 
        bilateral and international organization settings. Advocate 
        globally for foreign regulatory and policy regimes that 
        encourage competition and innovation.

        Oversee the IANA Contract and the Joint Partnership with MANN.

        Manage, prioritize, and allocate resources of office of nine 
        people.

    The White House, Washington, D.C.--Acting Assistant Director, 
Office of Science and Technology Policy, 2006.

        Formulate, coordinate and execute Executive Office of the 
        President (EOP) policies with respect to broadband, the 
        Internet, telecommunications, spectrum, interoperability, and 
        other technology-related issues.

        Lead inter-agency high tech task force whose members include 
        the Departments of State, Commerce, Justice and Education, the 
        Federal Trade Commission, and the Federal Communications 
        Commission.

        Research, analyze and brief EOP officials on regulatory and 
        legislative issues such as telecom reform, digital television 
        transition, President's Spectrum Initiative, ICANN, spyware, 
        indecency, and CALEA.

    United States Department of Commerce, Washington, D.C.--Senior 
Policy Advisor to the Assistant Secretary for Communications and 
Information, 2004-2006.

        Responsible for formulating and advocating the Administration's 
        position on domestic and international communications and 
        information technology issues, including: broadband; 
        eliminating economic and regulatory burdens on technologies; 
        ensuring multi-stakeholder and private sector leadership in the 
        Internet governance; and overseeing efficient management of the 
        Federal agencies' uses of spectrum.

        Liaison with the Federal Communications Commission on 
        proceedings of interest to the Administration.

    Williams Mullen Strategies, Washington, D.C.--Vice President, 2002-
2003.

        Advise and counsel a variety of telecommunications and 
        broadcast clients in their various legislative, regulatory and 
        communication needs.

        Work closely with third party groups and think tanks to 
        articulate public policy and form coalitions based on various 
        issue challenges.

    Covad Communications, Washington, D.C.--Senior Counsel, 2000-2002.

        Design and build company's Washington presence including 
        structure, management, liaisons, branding, public relations, 
        political action committee and non-profit outreach. Serve as 
        corporate spokesperson.

        Responsible for formulating, articulating and executing Covad's 
        public policy positions at the Federal and state levels. 
        Represent company before the Administration, Capitol Hill and 
        several trade associations. Manage multiple consultants and 
        Government Affairs budget.

    Cellular Telecommunications and Internet Association, Washington, 
D.C.--Director of Congressional Affairs, 1998-2000.

        Design, implement and manage legislative agenda for over 350 
        member companies at both the legislative and Executive branches 
        of the Federal Government.

        Monitor and analyze legislative and regulatory developments in 
        the telecommunications and technology industry.

        Planning and direction of political activities and fundraising 
        events.

    DeLange & Hudspeth, L.L.P. , Houston, TX--Associate, 1994-1997.

        General commercial practice including both transactional and 
        litigation.

        Business counseling including acquisitions, choice of entity, 
        contracts, bankruptcy and employment law.

    U.S. Department of State, Washington, D.C.--Legislative Management 
Officer, 1990-1992.

        Advocated the Administration's position for the Oceans, 
        Environment, Science and Technology Bureau.

    Personal Assistant to the Assistant Secretary for Legislative 
Affairs

        Aided Assistant Secretary Janet Mullins in the operations of 
        the Bureau of Legislative Affairs.

        Worked on special projects involving the Middle East and the 
        former Soviet Union.
Internships and Clerkships

        Summer 1994, Fifth Circuit Court of Appeals, Chamber of Harold 
        DeMoss, Houston, TX.

        Summer 1993, Lean y Muez, Mexico City, Mexico.
Education

        University of Houston Law School, Houston, Texas (J.D., 1994).

        Washington and Lee University, Lexington, Virginia (B.A., 
        1990).

        St. John's School, Houston, Texas (High school diploma, 1986).

    Senator Begich. Thank you very much, Ms. Baker. Thank you 
for mentioning satellites and Alaska, not that I'm biased or 
anything.
    [Laughter.]
    Senator Begich. We are also joined by Congresswoman Barbara 
Lee. If she can stand and be recognized. Thank you for 
attending.
    [Applause.]
    Senator Begich. I have had the privilege to chair once 
before and I always break the rules. Usually the chair would 
begin asking questions first, but I will yield to Ranking 
Member Hutchison, and then I will go through the list and I'll 
go last. Ensign, DeMint, Lautenberg, Johanns, Isakson. Senator 
Hutchison?
    Senator Hutchison. Thank you very much, Mr. Acting 
Chairman.
    I want to ask each of you about the Fairness Doctrine. My 
question is, do you think the Fairness Doctrine should be 
reinstated and are you committed to making sure the Commission 
will not attempt to revive the doctrine or any policy like it 
that effectively mandates broadcast speech? Ms. Clyburn?
    Ms. Clyburn. Age before beauty, I guess, right?
    Senator Hutchison. You went first.
    Senator Begich. Reverse alphabetical.
    Ms. Clyburn. Ranking Member, I believe that the Fairness 
Doctrine should not be reinstated in any way, shape or form. 
The FCC, I believe, is not in the business of censoring speech 
or content on the basis of political views.
    Ms. Baker. I am also very concerned about any move to 
reinstate the Fairness Doctrine either directly or indirectly, 
given the diversity of information sources that are available 
to consumers. And I, too, have been very pleased with the 
statements of Chairman Genachowski who also has said he 
believes strongly in the First Amendment and does not believe 
the FCC should be involved in censorship of content of 
political speech or opinion.
    Senator Hutchison. Thank you. I would like to ask both of 
you, and I will start with Ms. Baker because you had some 
experience in this area, and that is, what would be your 
priority, both of you, for a national broadband plan and the 
first steps that the FCC should take to establish such a plan?
    Ms. Baker. I think this is a great challenge but also a 
great opportunity for the FCC. I think it's important to set 
the economic climate so that we have incentives to build out 
broadband faster. I think it's important to have a regulatory 
climate that rewards investment and innovation and encourages 
competition. And I also think that it's really important to 
have a spectrum policy that unleashes the power of the public 
airwaves. And I think that effective and efficient management 
of Federal programs such as USF will probably round out that 
national plan.
    Senator Hutchison. Specifically, and I will ask you as 
well. Would your priority for the stimulus dollars and the 
early government money be for new areas where there is no 
broadband coverage or expanding where there is some, but 
perhaps not everything?
    Ms. Baker. I think it's very important to map broadband and 
to fill out areas that are unserved first.
    Ms. Clyburn. Ranking Member, as it relates to the national 
broadband plan, I believe the process, in and of itself, should 
be an open and inclusive one. One that should involve all 
stakeholders, many of whom are in this room. I believe that 
number one in that plan should be an assurance or to ensure 
that all people in the U.S. have access to broadband capacity. 
This process, as I said, should be fair and inclusive and 
participatory.
    And also the FCC has a great start as to the broadband plan 
that is due before this Committee on the 17th of February. They 
note, acknowledge and instituted the opportunity for 20 
workshops that are going to be open to the public, and I am 
looking forward to what that would deliver and bring--the 
promises it will bring for the American people.
    And as it relates to--you mentioned priorities. I am from 
South Carolina and as you mentioned, we have a lot of 
commonalities as it relates to rural--we are a rural state. I 
believe I sit next to a colleague who tells me every day, that 
we don't have broadband, we don't have broadband. So the 
priorities, I am in sync with you in terms of the parties 
bringing special attention to the areas unserved, but never 
losing sight of those underserved areas.
    Senator Hutchison. I will let others have a chance to ask 
questions and come back. Thank you, Mr. Acting Chairman.
    Senator Begich. Thank you very much. Next is Senator 
Ensign.

                STATEMENT OF HON. JOHN ENSIGN, 
                    U.S. SENATOR FROM NEVADA

    Senator Ensign. If you could both discuss your views on 
Internet neutrality. I want to start with an easy question 
first.
    Ms. Clyburn. Thank you very much. I appreciate that. First, 
I want to inform the Senator that I believe in preserving the 
openness of the Internet. This has been a vehicle for 
innovation and economic growth and opportunity for all 
Americans, especially small business. I think the Internet has 
thrived to the extent that it has because of the open nature of 
it, and I would do everything in my power to preserve that.
    Ms. Baker. I actually think there is a consensus growing 
around this concept of net neutrality, meaning there needs to 
be sufficient network management to have a reliable Internet 
that works. And I think that we all want an open Internet, an 
open platform that is able to have innovation on the edges and 
in the middle. We also know there is a distinction between 
lawful content and unlawful content, and they do not get the 
same protection.
    So there needs to be reasonable network management for 
network owners to have network management that can help protect 
against unlawful content such as child pornography, and spam 
and denial of service attacks and illegal content copyrights. 
There needs to be reasonable network management while 
maintaining the platform for innovation.
    Senator Ensign. Jump to second easy issue--media ownership 
rules were written at a time when we had very few TV stations 
and few newspapers in each locality and not many radio 
stations. Today we have everything from the Internet and 
podcasts to numerous stations. Cable television didn't exist 
back then the way that it exists today, and especially with the 
penetration that we have and since the digital television 
transition, the number of TV stations that they have is 
certainly greatly increased.
    You turn on your radio today and there is station after 
station after station. Even in a lot of rural areas there are 
many stations. Growing up as a boy in Lake Tahoe, we only had 
one radio station that had been coming in, well, most of the 
time. It's a much different story today.
    Having said that, can you express your opinions on media 
ownership and if the current rules apply to the technology that 
exists today. Does it still make sense to have the kind of 
media ownership rules that we have today?
    Ms. Baker. I will start on this one. It's a concern. I 
think this is a topic that ignites great passion and great 
concern in people. There are three principles the FCC looks at 
in media ownership: in localism, diversity--diversity of 
ownership and also diversity of viewpoints--and competition.
    I think those are the principles that you look at. And I 
think we would look at, if confirmed, in the quadrennial review 
which will be coming up. I personally think that from a policy 
standpoint from where I sit, the changes in the marketplace are 
apparent. And there is traditional media which is struggling. 
So we need to be careful not to put new burdens on an already 
struggling industry environment.
    I know this has been looked at by this Committee, and I 
think if confirmed, I would like to continue to work with this 
Committee to find answers to this issue.
    Ms. Clyburn. Senator, I agree that the media landscape is 
changing. We see entities like the Christian Science Monitor 
and the Rocky Mountain News moving into more of a hybrid 
delivery of our news. So definitely the landscape is changing.
    The FCC, I believe, if confirmed, I would like to be a part 
of assessing the impact of these changes as it relates to any 
ownership discussions. The agency will, I know, keep its eye on 
this very important issue, but I also want to affirm that I 
believe that a cacophony of voices on our airwaves, over our 
airwaves is a benefit to all Americans. And I speak from 
firsthand experience of being a former owner of a media outlet, 
that there are benefits to having a variety of voices. And I 
look forward to engaging in more conversations as it relates to 
the media universe.
    Senator Ensign. Thank you, Mr. Chairman. My time has 
expired but let me offer my congratulations to both of you on 
your nominations. I know you are both going to be excellent. I 
enjoyed meeting with both of you. And on those two issues I 
mentioned, I know they are contentious. That's the reason I 
brought them up. I knew you wouldn't commit to anything today, 
but I think it is important to raise those issues for 
discussion.
    On the subject of media ownership, to me it doesn't make a 
heck of a lot of sense to have the rules we have today 
considering the technologies that are in the marketplace today. 
The cacophony of media voices are much louder today because of 
technology. There is no way to shut it down and no way to 
monopolize it. I hope that you will both keep this in mind.
    This Committee also needs to take a fresh look at this 
issue along with network neutrality, because we want to have an 
environment where commerce can flourish in ways that it never 
has before. So I congratulate all of you. Congressman Clyburn, 
way to go. You and your wife must have done something very well 
to raise her. Thank you very much.
    Ms. Clyburn. Senator, if you will allow me to, I will 
commit to this--to working with you as it relates to the 
variety of issues that we have before us today.
    Senator Begich. Thank you very much, Senator. And before I 
go on, I want to remind members if you have additional 
questions that we are not able to do today, if you have 
questions for the record, please make sure they are done by 6 
p.m. Friday. Senator Lautenberg.

            STATEMENT OF HON. FRANK R. LAUTENBERG, 
                  U.S. SENATOR FROM NEW JERSEY

    Senator Lautenberg. Thanks, Mr. Chairman. And greetings to 
each of you. You bring the kind of quality that we know will be 
helpful in achieving the mission of the FCC. That is to make 
sure that broadband gets distributed properly, that we take 
care of the D-block opportunities for safety, network, and also 
to take a look--a serious look--at the question that I have, 
about whether or not the Internet which is no longer a luxury, 
it's a necessity, and people need it to communicate to 
government and to the people at large.
    So when I sit here with you, coming from the state of New 
Jersey, it would be the fourth largest media market in the 
country, and doesn't have any real commitment to New Jersey and 
its broadcast of not only news but, not only public service 
announcements and volunteering in the community. Doesn't the 
commitment, and I will ask you to be briefer in your answer 
than I am in my question, doesn't the commitment to license--
and by the way, the license on WWOR in New Jersey has a 
condition, and the condition is that it serves the New Jersey 
marketplace interests.
    And we are the largest, most densely populated state in 
this country with 9 million people, so doesn't a broadcaster 
have to go beyond public service announcements and volunteering 
service to earn its right to continue to broadcast news and 
information about what's going on in the state? Ms. Clyburn?
    Ms. Clyburn. Thank you so much, Senator. It's good to see 
you again. I know we had an opportunity to speak about this 
just briefly in your office, and I know how passionate and 
committed you are to that particular issue, and I share in your 
passion. I know that the situation that you mention is before 
the Commission, and I know it has been before it for sometime, 
and I know there is a special history, and a special passion.
    Senator Lautenberg. Thank you for that.
    Ms. Baker, how do you feel?
    Ms. Baker. I agree with Ms. Clyburn that this is an 
interesting issue in license renewal and if you are looking at 
localism and competition, this is certainly a local issue. I 
agree with you and if confirmed, pledge to look into it.
    Senator Lautenberg. In 2007 the FCC held a hearing in 
Newark, New Jersey on the license renewal of WWOR. New Jersey 
residents testified about the station's failure to cover New 
Jersey news. Now, a year or 2 years later, the station still 
has not adequately improved its service. They are now operating 
on an extension of a license that has not been renewed after 
the first term. And I take it that if you are confirmed, I can 
get a commitment from you that you look thoroughly at this case 
very quickly in your ascension to your seats?
    Ms. Clyburn. Yes, sir.
    Ms. Baker. Yes, Senator.
    Senator Lautenberg. Thank you for those lengthy answers.
    New Jersey is a net contributor of more than $180 million a 
year to the Universal Service Fund. I think everyone knows what 
the Universal Service Fund is. It has to take funds from one 
area, one state, and contribute to a fund to make sure that 
people who can't afford regular service have at least limited 
services, telephone availability. Have you thought about what 
you might have to do to reform the USF, and bring some fairness 
to donor states? Have you had a chance? If you don't, the 
question will persist, I promise you.
    [Laughter.]
    Ms. Baker. I think there is general consensus that 
universal service does need reform. How that outcome--how that 
outcome is reformed I think is still up in the air. I think 
what is important is we get a predictability of the subsidy so 
we can have certainty in the marketplace so we have assurance 
to customers and consumers that we have high quality services 
available at affordable prices. And if confirmed, I would be 
happy to work with you on how that actually plays out.
    Ms. Clyburn. And Senator, if confirmed, I commit to you 
that I will work with you and others to make sure that the fund 
is both efficient and effective and getting as much bang for 
your buck as can you get.
    Senator Lautenberg. Thank you very much. Mr. Chairman, I 
ask unanimous consent that my opening statement would be 
included in the record, and I commend the Committee for having 
found two such qualified nominees for positions on the FCC. And 
I would like to reiterate the statement that you each made 
about looking forward to working with me. I look forward to 
working with you. Thank you.
    Senator Begich. Senator, your statement will be in the 
record.
    [The prepared statement of Senator Lautenberg follows:]

            Prepared Statement of Hon. Frank R. Lautenberg, 
                      U.S. Senator from New Jersey
    Every day, computers and televisions become more important tools in 
our homes and in our lives. We know the Internet is no longer a luxury. 
It is a necessity. People need it to communicate, connect to 
government, take online classes and get information in emergencies. 
That's why we included more than $7 billion in the Recovery Act to 
bring broadband to every community in the country.
    TVs have also become increasingly interactive. Congress and the FCC 
have aided that transition by moving the Nation from analog to digital 
television. This move promises better programming, picture and sound 
quality for our residents and businesses, and it has freed up space for 
wireless broadband and public safety needs.
    If Mignon Clyburn and Meredith Baker are confirmed, we expect them 
to continue these national transformations.
    Our work on the digital transition is not yet done, for example. We 
need a plan for a public safety broadband network using some airwaves 
that were freed up by the switch to digital. That is a national 
imperative, but we also need these nominees to look out for the 
interests of our individual states.
    Ms. Clyburn has spent a decade serving on the South Carolina Public 
Service Commission, which regulates South Carolina's telecommunications 
providers. Before that, she published a weekly newspaper in Charleston, 
South Carolina. So Ms. Clyburn understands the importance of local 
media providing news coverage of local issues.
    This is a major issue for the nearly nine million residents of New 
Jersey, who are stuck between the media markets of New York and 
Philadelphia--and have no media market of their own. New Jersey's only 
commercial high-power station, WWOR, has failed to meet its obligations 
to our state.
    In fact, at a hearing the FCC held in New Jersey, our residents 
talked about how WWOR spends more time covering the schools, civic 
affairs and communities of New York than our state. If confirmed, I 
look forward to the assistance of these nominees to make sure WWOR does 
what its license says it should be doing: covering New Jersey.
    Meredith Baker has extensive experience at the NTIA, where she 
served as Acting Director. Ms. Baker was responsible for overseeing the 
digital TV converter box coupon program and coordinating the education 
efforts surrounding that program.
    As the FCC develops its national broadband plan, I hope Ms. Baker 
will use that experience to educate all Americans--particularly those 
in underserved, low-income areas--about the benefits of broadband.
    Increasing broadband availability and adoption is essential if we 
are going to help people continue to learn, get new or better jobs and 
keep America competitive.
    Finally, I hope these nominees can help fix the bloated Universal 
Service Fund. Each year, New Jersey pays almost $200 million more into 
the fund than it gets back.
    New Jersey cannot afford to bear this unfair and ever-increasing 
burden. I look forward to hearing from and working with today's 
nominees on these critical issues.''

    Senator Begich. Senator Johanns.

                STATEMENT OF HON. MIKE JOHANNS, 
                   U.S. SENATOR FROM NEBRASKA

    Senator Johanns. Let me add my voice to those who have 
complimented you and applauded you. You are both enormously 
qualified and I look forward to not only supporting your 
nomination, each of you, but I also look forward to working 
with both of you. I think you are both going to be a great team 
and a great asset to the FCC.
    The other thing I might add, I think it is so respectful to 
a Committee member to reach out to them and offer your time 
prior to the hearing. I think it is so respectful and I applaud 
you for doing that. Sometimes our schedules are busy, and we 
run in and out for a short meeting. But it speaks volumes that 
both of you did that. And I want you to know as a very junior 
member of this Committee how much I appreciate that.
    I've got three questions here to kind of gauge your sense 
of regulation, because after all, the FCC is a regulatory body. 
Thinking about the wireless industry--and I will start with 
you, Ms. Baker. Thinking about the wireless industry, where you 
sit today, what preconceived notion would you take to your job 
as a Commissioner? Do they need more regulation or less 
regulation?
    Ms. Baker. I think as we have 270 million cell phone users 
in America now and growing as we speak, that it's a healthy 
debate. People are moving from wireline to wireless. I think 
the reason that this wireless number continues to increase is 
the great competition that we see in this market. I guess that 
is why the panel of experts in the Department of Justice is 
looking into this. And I think we now actually have two bodies 
that are looking into the wireless market. I think the data 
will tell us how competitive the market is, but certainly it 
has been a success story of competition in America.
    Senator Johanns. Ms. Clyburn, what is your sense, more or 
less?
    Ms. Clyburn. Balanced, smart regulation. We need to be 
mindful that number one, is the protection of customers, but 
also keep in mind we must do everything in our power to help 
spur competition, but I think at the end of the day more 
players in the market will help with choices and prices and 
ultimately in consumer services.
    Senator Johanns. I will stay with you, Ms. Clyburn. Going 
to the next area in thinking about the Internet, more 
regulation or less regulation?
    Ms. Clyburn. I believe that we should, again, have smart 
and balanced regulation. The same holds true. Where there are a 
number of players in a certain market, then we wisely should 
stand back, and watch market forces. Where, if there are 
issues, by chance, there are issues with market abuses, then 
that's when--that's when my job becomes a bit clearer. So 
again, it's a delicate balance, but a smart regulatory approach 
is how I phrase it.
    Senator Johanns. Ms. Baker?
    Ms. Baker. I think we have an incredibly innovative 
Internet at this point that exists without regulation and I 
would be very hesitant to regulate. I think where there have 
been violations, there has been quick enforcement and that 
seems to provide the current environment in which the Internet 
is thriving.
    Senator Johanns. And the last one--broadcasters. More 
regulation of broadcasters or less regulation?
    Ms. Clyburn. Of broadcasters? More regulation or less 
regulation of broadcasters? It would all depend. Again, what 
are the market forces where the market is working, where it is 
vibrant where there is consumer satisfaction, less than more.
    Senator Johanns. Ms. Baker?
    Ms. Baker. We have a new media landscape that is evident to 
all of us every day whether it's through the Internet or our 
smart phones. The broadcasting industry is struggling, but it 
is still the main place, the universal mechanism, for people to 
receive their news and information. I would hesitate for any 
one company or group of companies to control all sources of 
information in a certain area of the country. However, again, 
if you look at the diversity of the media marketplace at this 
point, it seems unlikely.
    Senator Johanns. My time has expired, but I will offer this 
insight. I watched you both struggle with fundamental 
questions. This is kind of basic. If you want to regulate them 
more or you want to regulate them less. You can ask that about 
everything within your jurisdiction.
    The thought I offer is this--somebody pays for that. And 
you know it's not the big corporation, it really is the 
consumer. And if you don't strike that right balance, you 
hammer the little guy. And that's what I want you to think 
about. It's an enormously important issue. More regulation or 
less regulation. And I hope you come down on the side of the 
consumer. Thank you.
    Senator Begich. Thank you very much, Senator. Senator 
Cantwell.

               STATEMENT OF HON. MARIA CANTWELL, 
                  U.S. SENATOR FROM WASHINGTON

    Senator Cantwell. Thank you, Mr. Chairman and I'd like to 
follow that last point about protecting consumers and I think 
that's a key issue particularly as it relates to net neutrality 
and to make sure that someone doesn't take the Internet and 
hijack it and make it into a paid-for super-lane and make 
everybody pay for access which should be free. I asked Chairman 
Genachowski if consumers had a choice of multiple independent 
sources of broadband would that eliminate the need for further 
action on net neutrality and to paraphrase his response, he 
said short of unlimited broadband competition, he thought that 
there was a need for some rules on net neutrality. I know that 
you probably have heard this question already, Ms. Baker, we 
talked about it in our office. But, Ms. Baker, if you can talk 
about the need for a fifth principle on nondiscrimination.
    Ms. Baker. I think--I really do think the current 
innovation that we have in the Internet right now is working. 
And I think that the enforcement of problems has been quick and 
swift, and I think that is the best way for the future that I 
see right now. Until we gather more data about a larger 
problem, I would be worried about the unintended consequences 
of more regulation on the Internet.
    Ms. Cantwell. More regulation to make sure there is 
nondiscrimination?
    Ms. Baker. I, at this point, have not seen where there is a 
problem on blocked lawful content. I think unlawful content can 
be blocked where lawful content exists. I think that we have 
not had too many problems and that the enforcement of that has 
been swift.
    Senator Cantwell. Ms. Clyburn, what do you think about net 
neutrality? What else needs to happen? Where do you come down 
on that?
    Ms. Clyburn. I believe if I am interpreting your question 
correctly, we need to do all we can to make sure that the 
market is fully competitive. There are areas in the country 
where there might be zero, one, or two providers. In that I 
look forward to working with you, if you consider that 
concentration competitive, but if we will have zero or one or 
two providers that I think we have to question whether the 
market truly is competitive in that framework.
    So if we have a truly robust, competitive market, then as I 
mention, we might need to speak about as it relates to net 
neutrality, there might not be a real need for it, but if the 
market is not competitive, then I think that the need for and 
concentration on net neutrality is warranted.
    Senator Cantwell. I think what we are looking for is to 
make sure that consumers are protected by not having an undue 
cost put on top of them for access that otherwise would be free 
or to divide the Internet in some way that would allow people 
who pay for high broadband access--we are talking not about 
specific services here. We are talking about all of a sudden 
taking our freeways and turning them into something else and 
what that expense would be to consumers.
    So we are looking to you to make sure that there are 
protections in place, and obviously our colleagues here will 
decide what legislative actions we want to take to make sure we 
are protecting consumers from undue additional costs to access 
to the Internet.
    I know you had a question about media ownership by one of 
my colleagues, too. I wanted to get that question in, if I 
could.
    Ms. Baker, do you see the increased common ownership of 
television stations and daily newspapers in the same market as 
a negative impact on the quality and quantity of news in their 
communities or how do you look at that, the cross-ownership 
part?
    Ms. Baker. I think that broadcasting and newspapers are 
still a very stable traditional medium for people in an area to 
receive their information. So I think if they are owned by one 
source, then that does become troublesome. I also do think that 
we have a new media landscape where there is a wide variety of 
news sources, more than ever before, for people to receive 
their information.
    Senator Cantwell. Does that mean you are for cross-
ownership?
    Ms. Baker. I actually haven't had to vote on this--I 
realize the principles for the FCC to look at are localism, 
diversity and competition, and I would have to look at those 
principles and apply them as a situation arose at the FCC.
    Senator Cantwell. Ms. Clyburn?
    Ms. Clyburn. Senator, I am very wary of media consolidation 
and vowed I would take a very close look at this. As we said 
the landscape is changing, no one questions that. But we must 
assess the impact of these challenges and changes, that must be 
a part of this ownership discussion. The Commission I know is 
committed. And if confirmed, I will be committed to keeping our 
eye on this, because I think that having a variety of voices is 
most important, and in particular, I look forward to working 
with members of the Committee and other parties of record.
    Senator Cantwell. Thank you, Mr. Chairman.
    Senator Begich. Senator Thune?

                 STATEMENT OF HON. JOHN THUNE, 
                 U.S. SENATOR FROM SOUTH DAKOTA

    Senator Thune. Thank you, Mr. Chairman. And I want to 
welcome Ms. Baker and Ms. Clyburn to the Committee, and 
hopefully once we get you confirmed we will have, after having 
confirmed Commissioner McDowell and Chairman Genachowski, a 
full complement of people at the FCC to take on the important 
challenges that are ahead at the FCC.
    I would like to follow up on a question that was asked by 
Senator Cantwell that had to do with the issue of net 
neutrality. The question is, do you believe that Internet 
service providers should have the ability to violate this sort 
of nondiscrimination principle that was referenced during the 
confirmation in order to stop illegal content, child 
pornography and unauthorized copyrighted material from 
traveling across the network?
    Ms. Baker. I think there is a distinction between lawful 
content and unlawful content, and unlawful content has no 
protection. I think network operators need to have the 
flexibility to block unlawful content, whether it's child 
pornography, or spam, or denial of service attacks, or illegal 
copyrighting.
    Ms. Clyburn. When I speak of preserving the openness of the 
Internet, I am speaking of lawful content. I believe that 
operators or providers, if challenged with unlawful content, 
the content which you mentioned should have reasonable tools, 
be allowed to exercise reasonable network management in order 
to control what goes over the airwaves.
    Senator Thune. OK. Let me ask you a question about 
something that--and I think I have mentioned this to both of 
you in meetings, but both rural and non-rural carriers serve 
high-cost rural areas of the country, yet the USF distribution 
mechanisms are considerably different. The question would be, 
what changes do you believe the FCC should make, if any, to the 
current system that would more fairly allocate high-cost 
Universal Service Fund support, and what challenges do you see 
in attempting to apply a forward-looking cost approach in 
determining USF distribution to small rural carriers?
    Ms. Clyburn. I believe that the Fund needs to be run 
efficiently and effectively. I know there are issues in terms 
of the--in terms of the percentages--the cost of the Fund, and 
that we need to look at that, and make sure that--again, I 
would say simply in getting as much bang for our buck as we 
can. So the efficient and effective Fund I think will better 
serve us and that would help alleviate pressures as it relates 
to that contribution factor.
    Ms. Baker. You know, Senator, I don't have the answer to 
high cost universal service support at this point, but I look 
forward to working with you on that answer. I do think as far 
as universal service goes and as far as we reform it, wireline 
has moved to wireless and it's all moving to the Internet, so 
broadband needs to be part of the reform of universal service. 
And as we reform universal service, we need to be forward 
looking as well.
    Senator Thune. So including more of a broadband orientation 
in the USF issue.
    I would just say in terms of adequate cost recovery, it is 
the life blood of a lot of small providers and particularly 
those in rural areas of the country and they rely on inter-
carrier compensation and as well as universal service, to 
ensure they meet those carrier-of-last-resort responsibilities.
    So I would encourage you as you look at these issues to 
keep the rural carriers in mind with any intercarrier or USF 
reform. It is essential that rural areas play an equal role in 
the communication revolution that we are experiencing elsewhere 
across the country.
    I have one other question I would like to ask, too, and 
that has to do with the future of the wireless industry, 
finding additional spectrum is essential to the industry. And 
my question has to do with what Congress or the FCC can do to 
free up additional spectrum for wireless use?
    Ms. Baker. My turn. I think the spectrum inventory bill 
that the Committee marked up last week is a great start. I 
think it's a great baseline to see where spectrum is being used 
and where it's not. And where you can go from there is 
secondary markets and spectrum leasing and test beds. I think 
all of that is a really positive development especially for 
rural America and minority ownership as well.
    Ms. Clyburn. I also believe that spectrum inventory is a 
good idea. It's a precious resource that is limited. If we got 
more access that DTV has provided us--the transition has 
provided us with an incredible opportunity but it is still a 
finite and important resource.
    So I believe we need to understand what is out there and 
how it is being used and I look forward to working with all of 
you to ensure that the goals we have in terms of emergency 
personnel and all of the other uses that we see fit--that we 
use that optimally for a finite resource.
    Senator Thune. My time has expired, Mr. Chairman. Thank you 
very much for your willingness to serve.
    Senator Begich. Senator Klobuchar?

               STATEMENT OF HON. AMY KLOBUCHAR, 
                  U.S. SENATOR FROM MINNESOTA

    Senator Klobuchar. Thank you. We have another little 
hearing going on in the Judiciary Committee. You are lucky, 
there are a lot less cameras in here. I did want to stop by 
because I am looking forward to working with both of you. I 
want to congratulate you on your nomination, Ms. Clyburn, 
especially. I will never forget meeting your family in South 
Carolina. Your dad's fish fry is something I will never forget. 
There were a lot of people there. I think we had to hold hands 
to get through the crowd, if I recall.
    Anyway, I wanted to talk with both of you about the FCC. 
Earlier, we had a very good nomination hearing with Julius 
Genachowski and I enjoyed hearing from him about his views on 
modernizing the agency from the website on to make it more 
accessible, as well as bringing back the agency's reputation as 
being an agency of expertise so that Congress and other groups 
can rely on the agency, as we grapple with very technically 
difficult policy issues and I don't know if you want to comment 
on that, Ms. Clyburn.
    Ms. Clyburn. I agree that we should make sure that at the 
heart of every decision that we make, we keep in mind that the 
consumer is at the beginning and the end of that. This agency 
should not be satisfied with the GAO report that says it has 
some challenges and issues as it relates to consumer services 
and the provisioning of adequate questions and answers in 
response to their complaints.
    So first and foremost, as it relates to the agency, if 
confirmed, I look forward to communicating with the public and 
working with an agency that does not have another finding of 
that nature, and that we have a reputation of not being 
substandard as it relates to consumer services.
    Ms. Baker. I really appreciate this Committee's interest in 
this issue and commitment to make sure that the morale of the 
FCC and efficient effective use of staff is utilized. I am 
grateful for that. I also think that the modernizing of the 
website is so great and that is going to take a priority. It is 
a consumer agency, consumers need to come first and it needs to 
be consumer friendly.
    There are an awful lot of things. The Child Safe Viewing 
Act that Congress has passed. I think the website could be a 
useful tool for parents to find answers to what technology 
exists. So, I think there is an awful lot of things that can be 
done on that path.
    Senator Klobuchar. Very good. I will talk to you another 
time about this Cell Phone Bill of Rights that I introduced 
last year with Senator Rockefeller. We're very focused on that 
issue, but I thought I would mention something new I am working 
on with Senator Warner. That is our ``dig once'' bill and we 
are refining that bill and working with groups on it, but the 
idea is if we are doing infrastructure projects in this country 
and we are going to be tearing up Federal highways, we should 
at least use that opportunity to put in broadband conduit. To 
dig once. That is especially appealing in my state, right now, 
when we have one season, it's called road construction season. 
Unlike South Carolina we can't utilize a lot of the winter for 
that time, so we have huge road construction all at once. 
People are interested in trying to minimize disruption and save 
money. I wondered if both of you, if you want to start on this 
one, Ms. Baker, could comment on that concept.
    Ms. Baker. I appreciate your leadership on this issue and I 
am glad that you are focusing on it. I think it makes an awful 
lot of sense.
    Ms. Clyburn. And I too, think any opportunity for proper 
synergies, economic synergies that we could work toward 
economic efficiently is a wonderful potential and I am looking 
forward to working with you on that, sounds like a novel idea.
    Senator Klobuchar. I am the co-chair of the E911 caucus 
along with Senator Burr and we have been focusing on emergency 
issues in Minnesota. The 35W bridge collapse being an example 
of that, where actually the communications worked incredibly 
well with the eight-lane highway going down with 100 cars in 
the water and only 13 people died. And part of that was the 
emergency communications worked so well. They worked well 
because our county was able to get interoperability between 
agencies within a metropolitan area and we were one of the 
leaders on that.
    But I am very concerned about what I see especially in our 
rural areas with interoperability with public safety equipment. 
Before we had this in the metro area, a police officer was 
killed in St. Paul, and at that time we had some of the people 
chasing down the killer with six or seven walkie talkies, and 
radios because they couldn't communicate. Can you talk about 
your goals for interoperability for public safety?
    Ms. Clyburn. I think it is unacceptable, years after 9/11 
that we have not progressed further on this. I am from a 
beautiful but vulnerable state in terms of natural disaster, so 
this has a special meaning to me. I think the FCC could be a 
conduit of sorts to work with other agencies who are in the 
position to move things forward in this area, and if confirmed, 
I look forward to being an active participant in these 
discussions to move forward.
    Ms. Baker. The first bill I ever passed in Washington, 
D.C.--I was working at CTIA--was making 911 a national number, 
so it has a certain place in my own heart as well. I think 
interoperability is a huge challenge but one of the most 
important ones that is in front of the FCC. Currently the most 
important proceeding regarding that is what to do with the D 
block out of the digital television transition. I think it's a 
national issue, something that communications and technology 
can solve. I think the FCC has an important role in this 
discussion of interoperability.
    Senator Klobuchar. Thank you. I also wanted you to know, I 
started my legal career doing telecommunications law and I 
remember being one of the only women in the room as they 
discussed all these technical issues so it's kind of fun to 
have two women before us to be on the FCC. Congratulations.
    Senator Begich. Thank you, Senator.
    Thank you for, again, for your willingness to serve and be 
here today. I like today going last, because all the bigger 
questions, I can be very parochial on some very specific 
questions with regards to my state. But first I would like to 
comment about the website of the FCC--it should be a model, 
seeing that it's the regulatory body of telecommunications and 
it should be robust, consumer friendly and interactive. And I 
thank you for those comments and the Chairman was very 
motivated in underlining his interest to make sure that it is a 
very useful tool. My first two are probably very easy for you. 
The first one should be an easy answer.
    Alaska is so diverse, so unique when it comes to 
telecommunications and how we utilize it. Are you both willing 
over your term at least to come to Alaska? I want to get this 
for the record so you understand why I am getting it for the 
record.
    Senator Klobuchar. I want you to know he calls it extreme 
rural, not just rural, extreme rural.
    Ms. Clyburn. I'm looking forward to it, Senator.
    Ms. Baker. Senator, you would be happy to know that I have 
been to Alaska on a number of occasions and I have actually 
seen how important universal service is for tele-education and 
telehealth. I would absolutely also love to go back. I was 
hoping to go in August but I am also hoping now that I may be 
working.
    [Laughter.]
    Senator Begich. We will get you to do both at some point, 
maybe, up in Alaska. And also thank you for your comments in 
recognizing Alaska's uniqueness in telecommunications. I am 
sorry Senator Lautenberg isn't here, because I have the reverse 
view as you know with the USF. We appreciate New Jersey being a 
very large donor state to the Universal Service Fund.
    So as you move forward, and Alaska is currently recognized 
and you may or not know is 100 percent tribal which exempts it 
from some caps and some other issues and as you move forward on 
the USF reform, that will you keep in mind the very unique role 
that Alaska has with telecommunications and the vital link it 
has in regard to how that universal fund is utilized. Maybe I 
can start with you, Ms. Clyburn?
    Ms. Clyburn. If you mention the rural characteristics of 
your state, I too, come from a rural state, and I see firsthand 
the benefits that the Fund has delivered to our state. It is 
important to me. Its viability is important to me. We need to 
make sure that the Fund is efficient and effective and it is 
changing and evolving to present-day standards. So everything 
should be on the table as it relates to communications and how 
we--our expectations of the communications marketplace.
    Ms. Baker. I think Alaska is an example of--well, number 
one, how great America is and how diverse it is.
    Senator Begich. That's the right answer, so far. Good.
    [Laughter.]
    Ms. Baker. But it's why our national policies can't be one-
size-fits-all. It's why we need technology neutrality, the 
answers in Alaska are not going to be the same as they are in 
New Jersey.
    Senator Begich. Thank you very much for your comments 
regarding broadband and how important that is in the placement 
in Alaska. You know we have probably 75 to 76 percent Internet 
access at this point, 76 percent of the population which, is 
very significant, when you think of a rural area. But we use it 
in a very unique way, not only for communications, but as you 
mentioned, Ms. Baker, telemedicine is a powerful tool for us in 
a very rural area--but also for education, utilizing E-Rate and 
other tools to ensure that we have access, especially for rural 
schools where we can go from one hub and access 20 villages at 
the exact same time with some of the new Federal regulations, 
No Child Left Behind, is the one tool and only tool we can 
have. We would like your thoughts and how you feel about E-
Rate.
    Ms. Baker. E-Rate has clearly helped connect communities 
that the market would otherwise not have, and I am committed to 
maintain it.
    Senator Begich. One more, will you at the reauthorization 
of this, I would like to ask these things with the No Child 
Left Behind Act being considered for reauthorization, will you 
as a member of the FCC engage in that to some extent to see how 
education via the Internet is utilized?
    Ms. Baker. I have seen particularly in Alaska that 
regarding having a certified teacher requirement to teach 
children, is essential to have tele-education, because you 
don't have a certified teacher in every village, so, yes, sir.
    Senator Begich. So we will see comments possible from the 
FCC in that item report?
    Ms. Baker. Yes, sir.
    Ms. Clyburn. I had an opportunity to view in the news--not 
to plug a particular outlet but especially as it relates to not 
having been to Alaska yet and you invited me and I will be 
there.
    But I saw on television the power of E-Rate, the power of 
what is happening in classrooms that would not happen because 
of some of these geographic challenges that you mention. I have 
seen the power of E-Rate in my own neighborhoods with young 
children working in our neighborhood libraries on computers 
that I know they do not have at home. So I am absolutely 
supportive and I am a beneficiary of the E-Rate program and 
will do all in my power to see that it is enforced.
    Senator Begich. One last question and I will see if any 
member has some additional questions, and that is tribal lands 
and Alaskan native lands are treated with exceptions within the 
rules, and I guess it's more of an education than a question.
    When you see an Alaskan native corporation because we do it 
different up there, in how it is organized, it is similar to 
tribal lands and a lot of people are not clear when we talk 
about Alaska native corporations which are a replacement for 
the reservations that are in the lower 48, there are similar 
roles of rights of lands and so forth. So will you recognize 
the reform activity in the FCC regarding the uniqueness of 
tribal lands and in our case in Alaskan native corporation 
lands?
    Ms. Baker. If confirmed, I will certainly come to you for 
your expertise in tribal lands and the issues thereof.
    Ms. Clyburn. I look forward to engaging in conversations 
about, as it relates to that, and as Ms. Baker mentioned, we 
cannot afford to have a one-size-fits-all approach to those 
unique instances and those challenges you mentioned. I look 
forward to engaging more and doing all we can to ensure the 
goals that we have.
    Senator Hutchison, additional questions?
    Senator Hutchison. Mr. Chairman, mine were asked so I think 
we have covered it fully.
    Senator Begich. Thank you very much again. I want to thank 
you for your willingness to serve the public and for your 
family members that are willing to support you in this 
endeavor. I know it takes a great deal of effort and time. So I 
want to thank them on our behalf and remind all members also if 
you have questions to please submit them by 6 p.m. Friday.
    Almost. Senator Dorgan, they were smiling. And I hate to 
say, now they know you're here. So you have tough questions, 
I'm sure. Senator Dorgan, do you have any questions?

              STATEMENT OF HON. BYRON L. DORGAN, 
                 U.S. SENATOR FROM NORTH DAKOTA

    Senator Dorgan. Mr. Chairman, what an entrance! I didn't 
mean to come quite this close to the end. I was speaking on the 
floor of the Senate, but I appreciate your work and I wanted to 
just come for a moment to say that we have been through a long 
tortured trail with the Federal Communications Commission in a 
lot of ways. We have had very discouraging battles inside the 
Commission on very important issues, a lot of things have been 
deferred rather than decided.
    And my hope is that we are going to enter into a new era 
with the FCC. We have a lot of significant issues. Spectrum is 
very important. We have a lot of spectrum that lies fallow all 
around the country. I am trying to get the FCC to give us a 
complete inventory of fallow spectrum. We need to figure out 
how we can gather that spectrum and use it.
    We have a lot of folks who have purchased spectrum with no 
intention of using it in rural areas. So there we sit, have 
with the spectrum being auctioned and available and no one 
wishing to build out anything and rural areas are left behind.
    Forbearance petitions, the issue of universal service, the 
issue of what is the public interest requirement and 
responsibility with respect to broadcasters. What about 
concentration of ownership? All of these issues are really 
important issues. Many have been deferred at the FCC.
    I hope for a new FCC with a new era of cooperation. We had 
in this committee hearings and discussion about reports that 
were paid for by the taxpayers but were deep-sixed because they 
didn't report what someone wanted reported. So they never saw 
the light of day. Things have gone on in recent years that have 
been very troubling to me so I just wanted to come and say 
that.
    The Federal Communications Commission is a pivotal 
commission at this point for working a lot of important issues. 
If anybody wonders about the importance of communications, 
about the importance for example, of net neutrality which I 
know is very controversial, but in my judgment needs to be 
resolved, take a look at what happened in the country of Iran. 
Take a look at the folks in the streets of Iran and the methods 
by which they could communicate.
    If you ever understand and wonder about the importance of 
having open access and those kinds of things, just take a look 
at what was happening in that country. The issue of net 
neutrality is one that is so important, and as you know, the 
nondiscrimination rules do not exist at this point because of 
action by the Federal Communications Commission. The Commission 
could fix that on its own volition. If not, the Congress 
should.
    The architecture, the open architecture of the Internet, 
was created with nondiscrimination rules so that anybody 
anywhere can see and visit and experience anybody anywhere 
else. And those nondiscrimination rules in my opinion should be 
reestablished either legislatively or I hope, perhaps with a 
new determination in the Commission to see that reestablished.
    So those are the areas that I did come to say to the 
nominees, I think both will be--will be successful on the floor 
of the Senate. And I will be voting for both. And I have great 
hopes and high hopes for the performance of not only these two 
nominees but the new chairman of the Commission, and the 
holdover members, I see at least one in the room, Commissioner 
McDowell.
    So Mr. Chairman, thank you for allowing me to interrupt 
this right at the end of this hearing, and I wish the nominees 
well, and I want to indicate that I intend to be voting for 
them on the floor of the Senate.
    Senator Begich. Thank you, Senator Dorgan. Again, we want 
to thank you for your willingness to serve and again we would 
like to remind members and staff that if they have questions, 
they should submit them by 6 p.m. on Friday. Thank you very 
much.
    This Committee is adjourned.
    [Whereupon, at 4 p.m., the hearing was adjourned.]
                            A P P E N D I X

 Response to Written Question Submitted by Hon. John D. Rockefeller IV 
                          to Mignon L. Clyburn
    Question. As part of the Telecommunications Act of 1996, Senator 
Snowe and I established the E-Rate program to provide schools and 
libraries with affordable access to telecommunications services and the 
Internet. No other program has been as singularly effective at closing 
our educational digital divide. Thanks to the E-Rate program, today 
more than 90 percent of all classrooms have access to the Internet. 
Children in the most rural communities are able to enjoy the 
educational benefits and opportunities that broadband provides. 
Recognizing the importance of the program, will you commit to me that 
you will support and protect the E-Rate program as laid out in statute?
    Answer. I commit to you my full support for the E-Rate program as 
it is laid out in the statute. I have experienced first-hand the 
tremendous value of the program, and I will do everything in my power 
to protect it and ensure its continued success.
                                 ______
                                 
  Response to Written Question Submitted by Hon. Daniel K. Inouye to 
                           Mignon L. Clyburn
    Question. The Federal Communications Commission (FCC) formed NECA 
in 1983 to perform telephone industry tariff filings and revenue 
distribution. What do you believe is an appropriate level of oversight 
by the FCC over the activities and decisions made by the NECA?
    Answer. I have not yet been briefed by the FCC's staff on the 
specific activities and decisions of NECA or about the scope of the 
FCC's oversight of NECA to date. As a general matter, however, I 
believe that oversight is a crucial ingredient in good governance and 
is critical to providing efficiency and effectiveness in any program. 
If confirmed, I look forward to learning more about NECA and working 
with you and the Committee to ensure the appropriate level of oversight 
by the FCC.
                                 ______
                                 
    Response to Written Question Submitted by Hon. John F. Kerry to 
                           Mignon L. Clyburn
    Question. There are a number of proceedings pending at the FCC that 
involve making spectrum available in the broadcast bands on an 
unlicensed basis. These proceedings include the reconsideration of the 
FCC's so called White Spaces decision, the clearing of wireless 
microphones from the 700 MHz band, and the FCC work around data bases 
for white space device use. The important work done so far by the FCC 
puts us on a road to allowing greater wireless broadband connectivity.
    It remains important that these proceedings are concluded in a 
timely manner and allows the unlicensed use of the spectrum for 
wireless broadband. What are your thoughts about the broadband 
potential of the TV White Spaces?
    Answer. I am a strong believer in promoting the efficient use of 
spectrum, and wherever possible extending the benefits of such use to 
the public. White spaces certainly offer tremendous promise for 
advanced wireless services, including broadband, and could inspire new 
innovations yielding great advances for consumers. That being said, as 
the Commission proceeds in this area, it must protect existing users of 
licensed services from harmful and/or excessive interference. This is a 
delicate and difficult balance to achieve, and must be done on the 
basis of data that is universally available and with the continued 
participation from all stakeholders.
                                 ______
                                 
Response to Written Questions Submitted by Hon. Frank R. Lautenberg to 
                           Mignon L. Clyburn
    Question 1. As part of the Economic Recovery Act, the FCC will 
develop a national broadband plan by February 2010. In New Jersey, 
broadband has been deployed throughout the state, but many low-income 
residents--often in urban areas--cannot afford it, or it does not reach 
into their buildings. How will the FCC bring broadband to these 
underserved low-income residents, and not only more rural areas of the 
country?
    Answer. One of the FCC's top priorities over the next year is to 
develop a National Broadband Plan that sets the stage for ensuring that 
all Americans have access to high-speed, affordable broadband. This 
goal applies both to those Americans in rural areas who live in hard-
to-reach places, as well as those Americans in urban centers who either 
do not have access to broadband in their building or block or who 
simply cannot afford it. It is essential that we find creative ways to 
ensure that, even in those places where a large percentage of consumers 
do have access to broadband, we do not overlook those who do not.
    An important first step in this process is gathering data on where 
broadband is currently available and subscriber levels in areas where 
there is already access to broadband. My understanding is that this 
endeavor is already underway at the Commission, and if confirmed, I 
look forward to working with my colleagues to further this process 
along in order to lay the foundation for meaningful broadband access 
throughout the country.

    Question 2. Almost 8 years after 9/11, we still do not have a 
national, interoperable public safety communications network. One of 
the major benefits of the digital television transition that took place 
last month was supposed to be the creation of this network, but the 
portion of the airwaves set aside for public safety--known as the ``D 
block''--is still vacant. When do you expect to have a plan for the D 
block?
    Answer. Another important priority for the Commission continues to 
be working collaboratively with other agencies, as well as the private 
sector, to help achieve a nationwide, interoperable public safety 
communications network. As your question notes, we now finally have 
cleared the necessary spectrum to enable such a network and must 
refocus our attention on how the 700 MHz spectrum that is designated 
for first responders can be put to use. If confirmed, I will work with 
Chairman Genachowski and my fellow Commissioners to ensure that we 
develop a strong plan for the D block in the very near future.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. Tom Udall to 
                           Mignon L. Clyburn
    Question 1. Over the last 10 years, the U.S. has gone from being a 
world leader in Internet penetration to being 15th or worse, depending 
upon what statistics you read. What will you do as FCC Commissioner to 
reverse this trend?
    Answer. The United States should be a world leader in broadband 
access. A strong first step in this process is the development of a 
comprehensive and thoughtful National Broadband Plan, which is due from 
the FCC to Congress in February 2010. That plan must be the result of a 
process that is open, transparent and inclusive, and must reflect the 
myriad views from all sectors and regions of the country. I believe 
strongly that if we engage in a collaborative effort, bringing together 
the collective expertise of Federal and state agencies as well as the 
private sector, we can produce a plan that puts us back on a course to 
be leading the pack in broadband access.

    Question 2. As the FCC formulates a national broadband plan, the 
adoption of broadband by end users should be an important part of 
measuring its success. Simply laying fiber pipe across the country is 
not sufficient if people cannot afford or do not understand the 
economic and practical value of adopting it. What educational efforts 
or other activities will be needed to ensure high adoption rates for 
broadband? What do you propose to do to help low-income Americans 
afford access to broadband?
    Answer. I absolutely agree that our work is not done as soon as the 
fiber pipe is in the ground. Indeed, in one sense, our work has just 
begun. Congress expressly instructed the FCC in the statute requiring a 
National Broadband Plan to find ways: (1) to encourage Americans to 
adopt broadband where feasible and (2) to ensure that access to 
broadband is affordable. Our mission would be incomplete if we simply 
cultivated the infrastructure but failed to have most or all Americans 
take advantage of all broadband has to offer.
    As your question suggests, I think one area of focus must be how 
best to market broadband to different communities. We cannot and should 
not approach this issue as a one-size-fits-all campaign. The power of 
broadband will mean different things to different people, and we must 
recognize that only by speaking to an individual consumer's needs will 
we be successful in convincing them of its value.
    Likewise, it is as important that broadband is affordable. In order 
to ensure that all Americans have meaningful access to high-speed 
broadband, consumers must be able to acquire it for a reasonable price. 
The FCC, in conjunction with all relevant stakeholders, must take a 
hard look at the best mechanisms to deliver broadband that is 
affordable, and take the appropriate steps, if necessary, to ensure 
that broadband is not just a goal but a reality for all Americans. I 
look forward to working with you and the Committee to find the best 
manner in which to achieve this end.

    Question 3. Ms. Clyburn, you discuss in your testimony the 
importance of ensuring all Americans have access to communications 
technologies. Today many rural Americans--who make up 17 percent of the 
U.S. population--are much less likely to have broadband than suburban 
or urban dwellers. I hope you share my view that rolling out broadband 
to rural America today should be made a top priority. What will you do 
as FCC Commissioners to ensure that rural Americans benefit from 
advanced telecommunications, including broadband?
    Answer. Coming from a rural state--South Carolina--I am very aware 
of and concerned about the need for rural Americans to benefit from 
advanced telecommunications, such as broadband. Not only is the 
Internet an essential element to sustained economic success, but it is 
also extremely important to many individuals and families in rural 
communities where access to medical assistance and educational services 
is limited. Therefore, in the Commission's work on the National 
Broadband Plan, it needs to be aware of the significance of broadband 
to rural America and creative about ways in which the plan can ensure 
that those communities have broadband access in the near future.

    Question 4. During the campaign, President Obama said that 
reforming our universal service system will be a priority. I think that 
this essential if we are going to ensure affordable Internet access in 
rural parts of the country. Like the telephone in an earlier era, 
broadband has become essential in many ways. Job seekers must often 
look online for employment listings and file their applications 
electronically. Companies are less likely to locate or expand to areas 
where high speed Internet access is not affordable. Important public 
information from government agencies and news outlets is often 
available online.
    Will universal service reform be a top priority for the FCC under 
your leadership?
    What principles should guide any effort to reform universal 
service?
    Universal service does not cover broadband. Would you support 
universal service reforms to ensure greater Internet access for low 
income and rural Americans?
    Answer. Comprehensive Universal Service Fund (USF) reform is one of 
the most challenging and important issues facing the Commission today. 
The USF has been an essential part of ensuring that nearly all 
Americans have meaningful access to voice service, and thus it is 
important that we find ways to ensure its long-term health.
    Our current challenge is to encourage the deployment of basic and 
advanced telecommunications services to all Americans and to ensure 
that the essential USF can facilitate the broadband build-out our 
Nation requires. I believe that our mission should be to reform the USF 
so as to enable all of our citizens, regardless of where the live in 
the country, to have meaningful access to broadband.
    Because of the significance and complexity of the USF, any reform 
must be thoughtful and deliberate, and must aim to make the fund more 
effective and efficient. Moreover, a critical component of any USF 
reform is oversight, which must be robust without being overly 
burdensome.

    Question 5. When we met to discuss your interest in becoming FCC 
Commissioner, I related a story about President Clinton visiting 
Shiprock, New Mexico, where a girl who won a computer did not have a 
telephone line or Internet access at home.
    Too many tribal areas still do not have basic phone service, let 
alone broadband. Telephone access in Indian country today is less than 
70 percent. Broadband access may be only 10 percent. Although the FCC 
has taken some positive steps to address this problem, the digital 
divide facing Indian country obviously is still a challenge. How will 
the FCC under your leadership work to erase the digital divide in 
Indian country?
    Answer. The digital divide in Indian country is staggering and one 
of the toughest challenges we face. One way in which the FCC can help 
erase that divide is through its National Broadband Plan, which is due 
to Congress in February 2010. The FCC has been tasked with providing 
universal access to broadband, including a detailed strategy for 
achieving affordability of such service, which is undoubtedly a crucial 
factor in making high-speed broadband a reality in Indian country. If 
confirmed, I look forward to working with you on this important issue.

    Question 5a. Given the distinct challenges and unique situation of 
our Nation's tribes, do you support having a tribal office within the 
FCC to better assist tribes' efforts to gain access to modern 
telecommunications services?
    Answer. There is no doubt that our Nation's tribes present distinct 
challenges and a unique situation for the Commission, and that those 
circumstances demand a more tailored approach. I am open to all ideas 
on ways in which to improve the FCC's dealing with our Nation's tribes, 
and if confirmed, I look forward to hearing more about how such an 
office would function and what role it might play within the FCC's 
existing consumer outreach structure.

    Question 5b. My understanding is that the Telecommunications Act 
does not specifically mention tribes yet it should be understood that 
tribes were meant to be included. Will you support a flexible 
regulatory approach in order to meet the spirit of the law when helping 
tribes improve telecommunications access in Indian country?
    Answer. I have not yet been briefed on the issue of the scope of 
the Telecommunications Act with respect to our Nation's tribes. I am 
interested in learning more about this issue, and if confirmed, I would 
be eager to work with you to further understand your concerns and 
provide support consistent with Congress's intent.

    Question 5c. It has been 10 years since the FCC focused on tribal 
lands in a hearing on telephone services, can the Commission reinitiate 
hearings that focus directly on broadband and other critical services 
to tribal lands?
    Answer. If confirmed, I would support the Commission reinitiating 
hearings that concern broadband and other critical services to tribal 
lands.

    Question 6. Most Americans now consider the digital TV transition 
over. However, New Mexicans living in rural areas will continue to 
receive analogue TV until their local TV translators switch to digital 
next year or later. How will the FCC ensure that these rural TV viewers 
will not be left in the dark when the DTV transition finally takes 
place in their area?
    Answer. My understanding is that there is no current schedule for 
the transitioning of non-full-power stations to all-digital television. 
When that occurs, however, the FCC should employ the same focus and 
determination it demonstrated following the passage of the DTV Delay 
Act in order to ensure that those Americans currently relying on analog 
TV translators are clear about when the transition will occur and what 
steps they need to take to be digital-ready prior to the transition.

    Question 6a. How should the FCC and broadcasters address the issue 
of ``digital white spaces'' created in rural areas where free broadcast 
TV will no longer be available to some Americans?
    Answer. There is no doubt that the Nation's move to all-digital 
television for full-power stations was necessary and wise. By freeing 
up a significant amount of spectrum, we can now go about the business 
of building a nationwide interoperable public safety network and open 
the door to new advanced wireless technologies that will benefit 
consumers.
    At the same time, we must also recognize that the transition has 
left some consumers, including those in rural parts of the country, 
without the broadcast service to which they had been accustomed. From 
what I understand, the FCC has taken certain important steps to create 
avenues for such service to be restored. For example, the FCC is 
permitting new ``fill-in'' replacement translator service, which is 
aimed at problems created by the transition and is designed for use 
within full-service stations' service contours. I applaud efforts such 
as this one and, if confirmed, will work with you, the Committee and 
the Commission staff to find ways to help all consumers have access to 
free, over-the-air television.

    Question 7. New Mexico is a rural state where most areas have just 
one or two cell phone providers. This situation already limits consumer 
choices. People in rural areas with few wireless companies to choose 
from have even fewer options for phone handsets due to exclusivity 
arrangements between carriers and phone manufacturers. This exacerbates 
the digital divide between urban and rural areas.
    With traditional wireline service, one can take any telephone to 
any home or office and just plug it in to make calls--no matter who the 
service provider is. Yet if one changes wireless carriers, one often 
has to buy a new phone. This seems wasteful and unnecessary. What 
policies would you support to increase the availability of smartphones 
to consumers, particularly those that live in rural areas?
    Answer. I agree with the view expressed by then-Acting Chairman 
Copps in favor of opening a proceeding to examine wireless handset 
exclusivity arrangements. This is an important issue, with significant 
implications for consumers--especially those in rural areas. As the 
Nation's expert agency in this area, the Commission should determine 
the effect of such arrangements on consumer choice and on the 
development of innovative devices. I have not formed an opinion on the 
underlying matter, and if confirmed, I can assure you that I will 
review any matters on this subject with an open mind and will take 
seriously the impact on consumers of such arrangements.

    Question 7a. Do you believe public policy should mandate that 
wireless networks allow any new handset to connect to it, similar to 
the existing situation with wireline service since the Carterfone 
decision?
    Answer. As I noted above, I have not prejudged this issue and I am 
looking forward to reviewing the record, if confirmed. It is important 
that the Commission aim to stimulate innovation, investment and 
competition and that it consider the impact on consumers at every stage 
of its proceedings.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Mel Martinez to 
                           Mignon L. Clyburn
    Question 1. In addition to the legal applications and services, the 
Internet has also become a vehicle for criminal behavior like the 
dissemination of child pornography and IP theft. The explosion of 
pornography is especially disturbing. Ms. Clyburn, do you agree that 
there is a critical imperative that technological capabilities to block 
pornographic materials and pirated IP like films and television should 
be permitted in the context of appropriate network management? Can I 
have your assurance that the Commission will adhere to this important 
concept to protect U.S. public?
    Answer. I agree that technological capabilities to block unlawful 
material--such as child pornography, obscenity, or pirated IP like 
films and television--should be permitted as part of an operator's 
reasonable network management. You have my assurance that I will adhere 
to this position in order to protect the public and owners of 
copyrighted material.

    Question 2. Global copyright theft costs U.S. workers more than $16 
billion in lost wages and 373,000 jobs each year. Much of this theft is 
occurring over broadband networks. In your view, are net-neutrality, or 
so-called non-discrimination, obligations at odds with the ability of 
broadband providers to take steps to stem this tide of unlawful 
activity on their networks?
    Answer. I do not believe that the concept of network neutrality is 
at odds with the ability of broadband providers or network operators to 
stem the tide of unlawful activity on their networks. In my view, a 
broadband provider or network operator should be able to engage in 
reasonable network management, including to prevent unlawful activity 
from occurring on its network. I certainly do not believe that such 
management represents ``discrimination'' for purposes of network 
neutrality, which is a concept that only extends to lawful content and 
conduct.

    Question 3. It is generally agreed that greater broadband access is 
important because it creates jobs not only in the telecom and related 
sectors, but also through the economic opportunities generated by 
reliable broadband access in rural and underserved communities. This is 
all very good. At the same time, we know that a number of important 
U.S. industries are facing increasing challenges stemming from 
counterfeiting and piracy on broadband networks. Not only does such 
piracy result in substantial job losses in these and related 
industries, but it also results in large amounts of forgone tax 
revenues and economic output. It is important that as we work to invest 
taxpayer dollars to stimulate job growth in one sector, we don't simply 
offset those gains by fostering an environment that stimulate job 
losses and reduced economic output in other important American industry 
sectors. To that end we should encourage broadband providers to do what 
they can to deter piracy and counterfeiting on their networks. Can you 
assure us that the policies you will implement, any adoption of a so-
called ``nondiscrimination principle'' will not prevent broadband 
providers from engaging in reasonable and voluntary efforts to do so?
    Answer. I can assure the Committee that my support for an open 
Internet does not entail preventing broadband providers from engaging 
in reasonable and voluntary efforts to deter piracy and counterfeiting 
on their networks.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. John Ensign to 
                           Mignon L. Clyburn
    Question 1. It seems clear that there are physical, logistical, and 
technological differences between wireline and wireless broadband 
networks. Do you agree? Wireless certainly has different capacity and 
speed constraints compared to wireline broadband. As such, wireline and 
wireless networks are operated and managed differently. As the FCC 
considers network management regulations and develops a national 
broadband policy, do you believe that a one-size-fits-all regulatory 
approach for broadband makes sense?
    Answer. I do not believe that a one-size-fits-all approach is 
appropriate when it comes to broadband regulation. Most notably, 
different geographical areas of the country present unique physical, 
logistical and technological challenges to the provision and adoption 
of broadband service. A host of different issues must be addressed when 
developing a nationwide broadband plan that covers diverse places from 
Alaska to Nevada to South Carolina.
    That being said, as with any sector of the economy that cuts across 
the nation, there must be certain basic principles that apply to all 
elements of a nationwide broadband plan. In developing such overarching 
principles, the FCC must be open and transparent and must solicit and 
evaluate input from all stakeholders. By engaging in this process, the 
Commission can ensure that it takes account of, among other things, 
distinct types of broadband services and varying geographies, and 
therefore ultimately produces a plan that effectively sets the stage 
for ensuring broadband access for all Americans.

    Question 2. Technological convergence has dramatically changed the 
face of communications over the last decade. What do you think this 
means for the FCC and communications policymakers? Having served on the 
Public Service Commission of South Carolina since 1998, how has the 
dramatic changes in the marketplace during that time impacted your 
views on your role as a regulator?
    Answer. One of the most exciting aspects of today's communications 
landscape is communications ``convergence''--where wireless, wireline 
and video communications are becoming increasingly intertwined. We no 
longer strictly adhere to the traditional model that presented wholly 
distinct telecommunications markets; now we are seeing direct 
competition between once distinct players. In some ways, this state of 
affairs has forced the FCC and relevant state agencies to rework their 
regulatory frameworks.
    There are a number of examples of how this changed landscape has 
impacted my views on my role as a regulator. In some cases, the 
changing marketplace has put the regulation of certain services beyond 
the South Carolina PSC's reach. In other cases, technological 
convergence has required us to address the new public safety 
vulnerabilities that have emerged as a result (e.g., E9-1-1). In still 
others, because of the impact of wireless technologies on traditional 
investor-owned telephone companies in South Carolina, we have had to 
make significant adjustments to the State's universal service fund.
    The common thread in each of the above examples is that as 
regulators, we must be attuned to the constantly evolving marketplace 
and be prepared to identify and account for implications of that 
evolution. If confirmed, I will continue to evaluate such changes and 
work with my colleagues to determine what regulatory approach in each 
instance makes good sense to allow businesses to compete and thrive, 
and for consumers to reap the benefits.

    Question 3. The Obama Administration has prioritized infrastructure 
investment in the United States, from both a public and private 
perspective. This includes technology infrastructure. As Commissioner, 
will you prioritize private sector investment in broadband and 
telecommunications infrastructure? Could you give us some examples of 
how you might do this?
    Answer. If confirmed, I will prioritize private sector investment 
in broadband and telecommunications infrastructure. There is no 
question that private sector investment in such infrastructure is 
essential to achieving universal broadband deployment and adoption, as 
well as meeting the other goals set forth by Congress for the FCC as 
part of the National Broadband Plan. In order to ensure effective 
private sector investment, the FCC must, at a minimum, conduct 
processes that are open and transparent, and create a regulatory 
environment that is clear and predictable. If confirmed, I look forward 
to working with you, the Committee and my colleagues to figure out the 
best ways to involve the private sector in our goal to ensure access to 
broadband for all Americans.

    Question 4. U.S. consumers use more wireless minutes and pay less 
money per minute than their European counterparts. Furthermore, 
according to the FCC, mobile Internet penetration is higher in the 
United States than in any major European country. What does that say 
about the state of the U.S. wireless market? Doesn't that indicate that 
the current U.S. regulatory model is working?
    Answer. The wireless sector is one of the most promising elements 
of our Nation's telecommunications future. To the degree that the 
domestic wireless market is robust, I believe that we should support 
the existing framework and ensure that the landscape permits continued 
investment and innovation. Put differently, where economic analysis 
indicates that markets are functioning properly, we should allow them 
to thrive and intervene only when necessary and wise.

    Question 5. Local broadcasters take seriously their responsibility 
to serve their communities. Even in the face of a serious economic 
recession, I believe they provide an extremely diverse menu of news, 
information, sports, and entertainment for free. How do you view 
broadcasters' demonstrated commitment to serve the public interest? Do 
you support imposing burdensome operating and reporting regulations on 
broadcasters, like so-called ``localism'' requirements?
    Answer. Many local broadcasters have strong and positive records of 
meeting their obligations to serve their communities and the public 
interest. When broadcasters provide an extremely diverse menu of news, 
information, sports and entertainment, the public interest is 
undoubtedly well served. If confirmed, this is a goal I wholeheartedly 
support and believe that the broadcast industry can and should have a 
positive impact on our Nation's future.
    I want to affirm that I do not support imposing unwarranted 
burdensome operating and reporting regulations on broadcasters. If 
confirmed, I will work with Chairman Genachowski to ensure that all of 
our processes are open and transparent, and that our rules are derived 
from an inclusive process through which all stakeholders have ample 
opportunities to participate.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. Johnny Isakson to 
                           Mignon L. Clyburn
    Question 1. I have always been actively involved in taking the 
appropriate steps to combat child pornography on the Internet.
    As you know, in September of 2005, the FCC adopted a set of net 
neutrality principles that explicitly allows broadband providers to 
take reasonable steps to prevent unlawful activity such as child 
pornography and piracy or theft of copyrighted content over their 
networks.
    I have recently been made aware of the fact that it rejects the 
critical imperative that technological capabilities to block 
pornographic materials and pirated IP, like films and television be 
permitted. I am interested in knowing that it is your intention to 
confirm and adhere to this policy during your tenure as an FCC 
Commissioner.
    Answer. I support the FCC's existing net neutrality principles 
insofar as they permit broadband providers to take reasonable steps to 
prevent unlawful activity such as child pornography and piracy or theft 
of copyrighted content over their networks. In my view, we may and 
should preserve the openness of the Internet while allowing providers 
to prevent the dissemination of unlawful material.

    Question 2. Our broadband ranking has stagnated at 15th in the 
world for a few years now. Competition is a key ingredient in driving 
investment and system upgrades that will improve broadband quality. 
What policies will you advocate while at FCC to ensure that our global 
broadband ranking increases, and promotes competition?
    Answer. One of the goals of our National Broadband Plan must be 
laying the groundwork for improving our global broadband standing in 
the world. I concur that competition is an important factor in reaching 
that goal. In order to develop a program that spurs competition, the 
FCC must produce a plan that results from a comprehensive understanding 
of the marketplace through current data and an open, transparent and 
inclusive process.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. David Vitter to 
                           Mignon L. Clyburn
    Question 1. At the hearing, you discussed your view of the need for 
network openness for lawful content. I'd like to ask for a little more 
clarification on this important issue. As you know, in September of 
2005, the FCC adopted a set of principles that explicitly allows 
broadband providers to take steps to prevent unlawful activity, such as 
child pornography and piracy or theft of copyrighted content over their 
networks. Is it your intention to adhere to this policy during your 
tenure at the FCC and continue to allow service providers to act 
against illegal activity and not be overly hindered by openness 
regulations?
    Answer. My intention is to adhere to the FCC's policy of permitting 
service providers to act against illegal activity in order to comply 
with the law. As I understand it, the principle of network neutrality 
applies solely to the management of lawful traffic, and in no way 
prevents or hinders service providers from taking important steps to 
curtail unlawful activity.

    Question 2. What do you think can be done at the FCC to improve 
efforts to help parents protect their children from indecent content on 
television?
    Answer. In my view, the FCC should do everything in its power, 
consistent with the First Amendment, to assist parents in their efforts 
to protect their children from indecent content on television. I care 
deeply about this issue, and in addition to enforcing the current laws 
as passed by Congress, would like to see parents empowered with an 
array of tools at their disposal to make smart choices for their 
children.
    A positive step undoubtedly is the Child Safe Viewing Act which, 
among other things, requires the FCC to produce a report to Congress by 
the end of next month on the state of advanced blocking technologies. 
Understanding the overall landscape is an important start if the FCC is 
to find ways to arm parents and guardians with the knowledge and 
ability to monitor and restrict their children's access to 
inappropriate television content. If confirmed, I look forward to 
reviewing the record and working with Congress to continue this 
important momentum in the right direction.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. Jim DeMint to 
                           Mignon L. Clyburn
    Question 1. What are your thoughts on ``localism'' mandates and 
community advisory boards for broadcasters and the content they air?
    Answer. As you may know, a proceeding on this very question is 
currently pending before the Commission. See Report on Broadcast 
Localism and Notice of Proposed Rulemaking, 23 FCC Rcd 1324,  26 
(2008). I assure you that I have not prejudged this matter and, if 
confirmed, I look forward to reviewing the record and understanding 
your concerns as well as those of others in order to reach an 
appropriate decision. If confirmed, I intend to support a process that 
is open and transparent and that gives ample time for public 
participation. Only then can the Commission reach a well-reasoned and 
thoughtful decision that truly benefits the American people.

    Question 2. It is possible that community advisory boards may 
become populated by members of ideological groups and not provide an 
accurate representation of their local communities. Will you commit to 
oppose any efforts to use these local content advisory boards for 
partisan political purposes?
    Answer. As noted above in my answer to Question 1, due to the fact 
that the question of community advisory boards is currently before the 
Commission, and that I have not prejudged the issue, I do not have a 
view on this matter at the current time. I can say, however, that 
``partisan political purposes'' are inconsistent with the public 
interest and therefore have no role in attempting to promote the 
Commission's core media values of diversity, localism and competition.

    Question 3. How will you support and promote facilities-based 
competition in the communications market?
    Answer. If confirmed, I will work with the Chairman and my fellow 
Commissioners to implement and enforce the laws relating to facilities-
based competition as enacted by Congress. It bears noting, however, 
that one of the primary areas in which facilities-based competition can 
and should be enhanced is wireless communications. The United States 
should strive to be a leader in the wireless world and, if confirmed, I 
will urge the FCC to lay the groundwork for continued innovation and 
opportunity in the wireless market to further support and promote 
facilities-based competition in the overall communications market.

    Question 4. Do you believe broadband services should be eligible 
for Federal universal service support?
    Answer. One of our Nation's central ongoing challenges is to 
encourage the deployment of basic and advanced telecommunications 
services to all Americans. As part of this effort, I believe that the 
Universal Service Fund should, if at all possible and reasonable, help 
facilitate the broadband build-out our Nation requires. The FCC should 
make its best efforts to reform the USF so as to enable all of our 
citizens, regardless of where they live in the country, to have 
meaningful access to broadband.

    Question 5. Does Section 254 of the Communications Act authorize 
support for these services or does the Act need to be amended to 
authorize it?
    Answer. I have yet to be briefed in any detail on this issue by 
Commission staff and the General Counsel and would not want to reach a 
conclusion on this matter without first doing so. I do note, however, 
that under Section 254(c)(2), Congress determined that ``[u]niversal 
service is an evolving level of telecommunications services that the 
Commission shall establish periodically under this section, taking into 
account advances in telecommunications and information technologies and 
services.'' In the same subsection, Congress authorized the Federal-
State Joint Board on universal service to recommend to the Commission 
changes in ``the definition of the services that are supported by 
Federal universal service support mechanisms.'' The Act therefore 
appears to contemplate a flexible and evolving definition of 
``universal service.''
    If confirmed, I am interested in consulting with Congress and the 
Commission's expert staff on this matter to determine the scope of 
section 254 with respect to broadband.

    Question 6. Please identify any specific occurrences or activities 
that, in your opinion, have violated net neutrality.
    Answer. My understanding is that the FCC has brought at least two 
enforcement actions against network operators for violating net 
neutrality principles. In one instance, a petition alleged that an ISP 
was blocking its customers' access to VoIP service. In another, a 
network operator was alleged to have unlawfully interfered with peer-
to-peer file-sharing protocols.
    I am also aware that the Commission has taken certain actions with 
respect to network discrimination in the context of mergers in the 
telecommunications industry in order to ensure that the general 
principles of network neutrality are upheld.

    Question 7. Please also explain how the resolution of these 
episodes would have been expedited or improved had there been in place 
an enforceable rule or law mandating net neutrality.
    Answer. Because I was not involved in those matters and have only a 
basic understanding of how they unfolded, I am unable to address with 
any specificity how and whether their resolution would have been 
expedited or improved had there been in place enforceable rules or laws 
mandating net neutrality.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Olympia J. Snowe to 
                           Mignon L. Clyburn
    Question 1. As you are probably aware, this committee was actively 
engaged in the issue of media ownership last session when the FCC 
decided to relax a crucial media ownership rule--specifically, lifting 
the 32-year-old absolute ban on newspaper/broadcast cross-ownership.
    My concern is that such action will ultimately lead to further 
consolidation within the industry instead of focusing on what is truly 
needed, which is effectively promoting localism and diversity in media 
ownership. To that point, a report by the Consumer Federation of 
America, Consumers Union and Free Press, utilizing the FCC's own data, 
showed that lessening newspaper-broadcast cross-ownership rules 
resulted in a net loss in the amount of local news that is produced 
across local markets by broadcast stations. Also, minority and women 
ownership of media outlets are also at dreadful levels--currently only 
6 percent of full-power commercial broadcast radio stations are owned 
by women and 7.7 percent are owned by minorities. Ownership of 
broadcast TV is even lower--5 percent for women and only 3.3 percent 
for minorities.
    Given your experience as a newspaper owner, what specifically can 
the FCC and/or Congress do to better address the continuing problems 
the industry is facing and at the same time protect the fundamental 
tenets of competition, localism and diversity?
    Answer. There is no question that the media industry is undergoing 
significant changes in today's marketplace. If confirmed, I will take a 
close look at the continuing problems in the media industry when 
evaluating the degree to which the broadcast industry is adhering to 
the Commission's core media values of diversity, localism and 
competition.
    That being said, the fact that the media industry looks different 
today than it did in the past does not alleviate the need to ensure 
that our media is diverse and provides meaningful local content. The 
numbers you cite with respect to minority and female ownership are 
distressing and the Commission must marshal its resources to better 
understand the problem in order to develop solutions that will benefit 
all Americans. I believe that my 14 years as a small business owner of 
a newspaper in South Carolina give me a special appreciation for the 
challenges faced by entrepreneurs and, if confirmed, undoubtedly will 
help inform my overall approach to this critical issue.

    Question 2. An additional concern I had during the FCC's action was 
the lack of time the Commission allowed the public to comment on its 
specific rulemaking. While the FCC had its media ownership proceeding 
open for some 17 months, it provided only 28 days for public comment on 
the specific proposal, when the Commission has historically provided 
60-90 days on similar proceedings. Do you believe the FCC's actions 
were just in providing such a short time-frame for public comment on 
such a crucial issue?
    Answer. There is no question that the Commission must conduct open 
and transparent proceedings and ensure that the public has ample 
opportunity to participate in its decision-making process. Our 
government simply cannot be a government by, for and of the people if 
it fails to include them in a meaningful way.
    Early in his tenure, Chairman Genachowski has made clear that he 
intends to run an open and transparent Commission. If confirmed, I will 
fully support him in this endeavor and champion transparency and 
inclusiveness at every stage of the process.

    Question 3. Given that the FCC is charged with regulating 
interstate and international communications by radio, television, wire, 
satellite and cable, if the Court rules in favor of Comcast and states 
the FCC didn't have the authority to enforce its Internet Principles, 
what steps will you take as Commissioners to ensure the Commission does 
have the power to protect consumers' ability to access content of their 
choice--fostering the creation, adoption and use of broadband Internet 
content, applications and services, and ensuring that consumers benefit 
from that innovation, which is what the principles were adopted for in 
the first place? Do you support the codification of the FCC Internet 
Principles?
    Answer. I am a strong believer in the openness of the Internet and 
the benefits it has provided consumers and businesses throughout the 
world. It is unlikely that we would have seen the level of innovation, 
capital investment and small business development that has occurred if 
the Internet had not been an open platform. I therefore believe that 
the Commission should do its part to maintain the openness of the 
Internet so that it can continue to serve as an engine of incredible 
economic growth and general welfare for our Nation.
    As you have indicated, a related matter is currently pending before 
the D.C. Circuit. If confirmed, I will continue to support finding ways 
to protect the open nature of the Internet that are consistent with the 
law.

    Question 4. As you may know, I have been a champion for legislation 
that would ensure the inherent openness and freedom of the Internet 
remain intact and that carriers cannot use their networks in 
anticompetitive ways against content or applications providers or with 
new entrants. These protections are essential for allowing innovation 
to flourish at all points of the Internet supply chain.
    At the same time, I am cognizant that there has to be an 
appropriate level of flexibility for network operators to effectively 
manage their networks to ensure quality of service (QoS) to all 
customers as well as to combat the growing problem of piracy that 
plagues the Internet. According to the International Federation of the 
Phonographic Industry (IFPI), 40 billion songs were illegally 
downloaded in 2008 worldwide and that 95 percent of online music 
downloads are completed illegally. Obviously this illegal traffic 
attributes to the congestion that some broadband consumers experience 
when surfing the web as well as an undue increase in operational costs 
to network operators for delivering this illegal content.
    Do you have concerns about the growing problem of piracy? What are 
your views in balancing the necessity of ensuring the Internet remains 
open and that users can access lawful content, applications and 
services without restriction with our concerns that ISPs must be able 
to manage their networks in an appropriate way to maintain QoS and to 
protect against unlawful activities such as piracy and child 
pornography?
    Answer. I am concerned about the growing problem of piracy and 
other unlawful activities on the Internet. It is a real and present 
concern that must be taken seriously by all relevant parties. To that 
end, my understanding of the concept of net neutrality is that it is 
fully consistent with permitting ISPs to manage their networks in 
appropriate ways to ensure that they are an equitable vehicle for 
lawful content. Moreover, in order to ensure that all Americans have 
equal and open access to the Internet, networks must be able to engage 
in reasonable management practices designed to enhance their quality of 
service to all consumers.

    Question 5. A 2008 Pew Internet & American Life Project survey 
found that approximately 62 percent of dial-up users said they weren't 
interested in switching to broadband. That same survey also found that 
33 percent of non-Internet users say they are not interested in using 
the Internet. So while we must focus on making sure affordable 
broadband is available to all Americans, we also must make sure that 
any ``digital divide'' is not self-inflicted--that individuals are 
aware and understand the importance of broadband and the countless 
benefits it can provide to them.
    The American Recovery and Reinvestment Act of 2009, does address 
this issue with tasking the FCC with developing a national broadband 
plan that includes a ``detailed strategy for achieving affordability of 
such service and maximum utilization of broadband infrastructure and 
service by the public.''
    What specific initiatives/proposals do you believe would be 
beneficial to achieving that goal of consumer awareness and education? 
And how involved should the government be in addressing that effort and 
improving the digital literacy of Americans?
    Answer. You have identified an essential ingredient to any 
comprehensive National Broadband Plan. The Commission can set the stage 
for broadband reaching all corners of the country, but if the adoption 
rate is low, our mission would be incomplete. It is important that the 
Commission engages in a data-driven process that includes information 
about adoption rates and studies about how to ensure that all Americans 
appreciate the incredible impact broadband can have on their daily 
lives.
    By the same token, we must also lay the groundwork for broadband 
that is affordable. There is no question that the cost of broadband 
services plays and will continue to play a role in Americans' decisions 
whether or not to subscribe. Therefore, in conjunction with robust 
consumer awareness and education plans, the Commission must also find 
creative ways to ensure that once aware and educated, American 
consumers are able to afford broadband service.

    Question 6. As the FCC moves forward in its effort to establish a 
national broadband policy, in its notice of inquiry, the Commission 
seeks comment the definition of broadband. In its semiannual High-Speed 
Services for Internet Access Report, it historically collected date on 
lines that were 200 Kbps or higher. In revising the Form 477 collection 
it expands the number of broadband speed tiers but still uses 200 Kbps 
as a minimum standard.
    However, the United Kingdom, in its Digital Britain report, loosely 
defines broadband at 2 Mbps by outlining the countries effort to 
deliver its Universal Service Broadband Commitment at 2Mbps (a baseline 
service standard) by 2012.
    What are your thoughts as to what the appropriate definition of 
``broadband'' should be--should it be a numerical value or a service 
metric defined by different services running concurrently over a 
connection or something else?
    Answer. The issue of how to define broadband is crucial to the 
overall National Broadband Plan. If confirmed, I am looking forward to 
hearing from all parties in order to evaluate the best way in which to 
define ``broadband.'' I believe the only manner in which to develop the 
most appropriate and comprehensive definition is to have a process that 
is open and transparent and that encourages robust public 
participation. Under the leadership first of Acting Chairman Copps and 
now of Chairman Genachowski, the Commission appears to be off to a 
great start, and if confirmed, I look forward to working with the 
Chairman and my fellow Commissioners to develop a comprehensive and 
thoughtful plan by February 2010.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Charles Grassley to 
                           Mignon L. Clyburn
    Question 1. The FCC has already been working hard on broadband 
deployment issues through notices of inquiry. I'm happy to see the 
Commission thinking long-term and look forward to seeing the results. 
However, I'd like to know if there are any reforms to the USF program 
that could be taken in the shorter term, such as ensuring rural 
carriers that have purchased underinvested assets of the Nation's 
largest carriers have a meaningful opportunity to qualify for high-cost 
support. If so, would these include qualifying for support based on 
forward-looking economic cost or cost estimates based on population 
density?
    Rural and non-rural carriers serve high cost, rural areas of the 
country--such as in Iowa, yet their USF distribution mechanisms differ. 
Worse yet, some ``rural'' carriers don't receive any high cost support 
because of bad investment and business decisions made by the previous 
owners of their network. As FCC Chairman, what changes would you 
propose to the current system that would more equitably allocate high 
cost USF support? Would standardizing the funding based on forward-
looking costs be a more realistic approach that would result in a more 
equitable distribution of support?
    Answer. Universal service reform is one of the most important 
issues facing the Commission today. If confirmed, I pledge to look at 
all pieces of the program to ensure that it is running efficiently and 
effectively so that we are receiving the greatest return on our 
investment nationwide.
    Despite our need for comprehensive and thorough reform, there also 
may be interim steps that can be taken to correct some of the more 
glaring weaknesses in the program. If confirmed, I look forward to 
working with you and other representatives of rural areas of the 
country to evaluate the best mechanisms for high-cost USF support. I 
believe that all options should be on the table, and any decisions must 
reflect the real-world challenges faced by carriers and be based on a 
data-driven process. I already have a strong sense of some of these 
challenges, having served as a regulator in a largely rural state for 
more than a decade.

    Question 2. The FCC has had before it the remand from the Tenth 
Circuit concerning the non-rural high-cost universal service program 
for the entire time you have been on the Commission and just received 
yet another round of comments. The non-rural program is currently the 
only means by which a carrier can qualify for USF support based on 
forward-looking economic cost. Based on your experiences at the 
Commission, what are your thoughts on how to determine eligibility to 
receive high-cost funding? Do you think the current distinctions 
between the rural and the non-rural programs make sense?
    Iowa is a predominantly rural state. The GAO reported in 2008 that 
the USF high cost fund's structure has contributed to inconsistent 
distribution of support and availability of services across rural 
America. If we fail to remedy this situation of today's system, the 
problem will likely only get worse if the system is expanded to include 
broadband support. Why do you think vastly different high-cost support 
mechanisms present a fundamental inequity in the USF system? How should 
this inequity be addressed by the FCC to remedy the situation?
    Answer. While I have some familiarity with the specifics of the 
Universal Service Fund, I have not yet been fully briefed by FCC staff 
on the different high-cost support mechanisms operating under the USF. 
If confirmed, I look forward to hearing more about your concerns on 
this subject and working with you and my colleagues to ensure that the 
fund operates effectively and efficiently and continues to serve as a 
positive force in ensuring essential telecommunications services for 
all Americans.
                                 ______
                                 
Response to Written Questions Submitted by Hon. John D. Rockefeller IV 
                       to Meredith Attwell Baker
    Question 1. As part of the Telecommunications Act of 1996, Senator 
Snowe and I established the E-Rate program to provide schools and 
libraries with affordable access to telecommunications services and the 
Internet. No other program has been as singularly effective at closing 
our educational digital divide. Thanks to the E-Rate program, today 
more than 90 percent of all classrooms have access to the Internet. 
Children in the most rural communities are able to enjoy the 
educational benefits and opportunities that broadband provides. 
Recognizing the importance of the program, will you commit to me that 
you will support and protect the E-Rate program as laid out in statute?
    Answer. Yes. I recognize and appreciate the importance of the E-
rate program, which has been unsurpassed in connecting schools and 
libraries in communities, thus allowing all Americans access to the 
transformative power of broadband. If confirmed, you have my assurance 
that I am fully committed to supporting and protecting the E-rate 
program as laid out in statute.

    Question 2. Part of the reason Congress delayed the digital 
television (DTV) transition from February to June 2009 was due the 
converter box coupon program running out of funds. As head of the 
National Telecommunication and Information Administration (NTIA), you 
oversaw the DTV coupon program and monitored its progress. Why was the 
funding problem not identified prior to the end of 2008?
    Answer. The Bush Administration, particularly the Office of 
Management and Budget, saw the DTV coupon program as part of the 
Deficit Reduction Act, rather than a vital consumer program. Although I 
urged otherwise, the Administration would not agree to request from 
Congress either additional funds or an Anti-Deficiency Act waiver. 
Rather, they elected to propose additional budget authority only after 
the maximum dollar amount for redeemed and active coupons was reached. 
Thus, although I identified the funding problem prior to the end of 
2008, I did not have the necessary support to resolve the matter. Given 
the importance of the DTV coupon program and the proximity to the 
(then) DTV transition date, I worked in a transparent and collaborative 
manner with the Obama Administration Transition Team and Congress to 
present options for solving the problem in the most effective and 
efficient manner.
                                 ______
                                 
  Response to Written Question Submitted by Hon. Daniel K. Inouye to 
                         Meredith Attwell Baker
    Question. The Federal Communications Commission (FCC) formed NECA 
in 1983 to perform telephone industry tariff filings and revenue 
distribution. What do you believe is an appropriate level of oversight 
by the FCC over the activities and decisions made by the NECA?
    Answer. The Commission has a duty to ensure that the National 
Exchange Carrier Association (NECA) conducts its business in accordance 
with applicable Commission rules and guidelines. I agree with those 
that have suggested an operational, financial and ethics audit of the 
FCC and its related entities. If confirmed, I will work to ensure that 
NECA is included in that process.
                                 ______
                                 
    Response to Written Question Submitted by Hon. John F. Kerry to 
                         Meredith Attwell Baker
    Question. There are a number of proceedings pending at the FCC that 
involve making spectrum available in the broadcast bands on an 
unlicensed basis. These proceedings include the reconsideration of the 
FCC's so called White Spaces decision, the clearing of wireless 
microphones from the 700 MHz band, and the FCC work around data bases 
for white space device use. The important work done so far by the FCC 
puts us on a road to allowing greater wireless broadband connectivity. 
It remains important that these proceedings are concluded in a timely 
manner and allows the unlicensed use of the spectrum for wireless 
broadband. What are your thoughts about the broadband potential of the 
TV White Spaces?
    Answer. I believe that the TV white spaces hold great potential for 
broadband, and I followed the FCC's action last fall with great 
interest. I think that it is important to utilize spectrum in 
efficient, transparent and flexible ways so as to unleash its great 
potential for the American people. Moreover, I am hopeful that the 
advanced services offered by this new spectrum will present additional 
opportunities for entrepreneurs--including women, small businesses and 
minorities--to enter the communications industry. I confirmed, I look 
forward to joining my FCC colleagues to continue to build upon the 
FCC's early and exciting success.
                                 ______
                                 
Response to Written Questions Submitted by Hon. Frank R. Lautenberg to 
                         Meredith Attwell Baker
    Question 1. As part of the Economic Recovery Act, the FCC will 
develop a national broadband plan by February 2010. In New Jersey, 
broadband has been deployed throughout the state, but many low-income 
residents--often in urban areas--cannot afford it, or it does not reach 
into their buildings. How will the FCC bring broadband to these 
underserved low-income residents, and not only more rural areas of the 
country?
    Answer. If confirmed, I will proceed mindful of the importance of 
competitive and technological neutrality. Given the diverse geography 
and demographics of our nation, the plan must not favor one particular 
technology or type of provider over another, even inadvertently. 
Broadband deployment throughout America is not a one-size-fits-all 
proposition. Wireline, wireless and satellite technologies are each 
worthy alternatives. Low income residents in New Jersey will benefit 
from the lower prices resulting from the competition among an array of 
service providers. If confirmed, I look forward to working with 
Congress and my Commission colleagues to develop a thoughtful, 
practical and pragmatic National Broadband Plan.

    Question 2. Almost 9 years after 9/11, we still do not have a 
national, interoperable public safety communications network. One of 
the major benefits of the DTV Transition that took place last week was 
supposed to be the creation of this network, but the portion of the 
airwaves set aside for public safety--known as the ``D block''--is 
still vacant. What accounts for this delay? When do you expect to have 
a plan for the D block?
    Answer. One of the most important benefits of the digital 
television transition is the ``D block,'' which has the promise to 
deliver nationwide public safety interoperability. If confirmed, I will 
work closely with my FCC colleagues to learn more about this important 
endeavor and to devise a plan for moving forward. I will also listen to 
Congress, and engage the public safety community regarding new ideas. I 
am hopeful that this is a challenge that will take priority and will 
resolved in the very near term.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. Tom Udall to 
                         Meredith Attwell Baker
    Question 1. Over the last 10 years, the U.S. has gone from being a 
world leader in Internet penetration to being 15th or worse, depending 
upon what statistics you read. What will you do as FCC Commissioner to 
reverse this trend?
    Answer. The National Broadband Plan that Congress has charged the 
Commission to complete by February of next year is an important and 
strategic opportunity to ensure that the proper environment exists so 
that broadband can continue to flourish. Hopefully, this plan will 
include economic incentives to build out infrastructure faster at 
higher speeds and set a regulatory climate that rewards innovation, 
investment and encourages competition. A spectrum policy that unleashes 
the value of the public airwaves is critical, as is effective and 
efficient management of programs such as universal service. If 
confirmed, I pledge to work collaboratively with my colleagues to 
devise a timely, thorough and thoughtful plan.

    Question 2. As the FCC formulates a national broadband plan, the 
adoption of broadband by end users should be an important part of 
measuring its success. Simply laying fiber pipe across the country is 
not sufficient if people cannot afford or do not understand the 
economic and practical value of adopting it. What educational efforts 
or other activities will be needed to ensure high adoption rates for 
broadband? What do you propose to do to help low-income Americans 
afford access to broadband?
    Answer. If confirmed, I look forward to closely collaborating with 
Congress and my Commission colleagues to identify and implement an 
array of methods to educate consumers on the benefits of broadband. 
Moreover, if confirmed, I will proceed mindful of the importance of 
maintaining competitive and technological neutrality. Given the diverse 
geography and demographics of our nation, the plan must not favor one 
particular technology or type of provider over another, even 
inadvertently. Broadband deployment throughout America is not a one-
size-fits-all proposition. Wireline, wireless and satellite 
technologies are each worthy alternatives. Low income residents in New 
Mexico will benefit from the lower prices resulting from the 
competition among an array of service providers. If confirmed, I look 
forward to working with Congress and my Commission colleagues to 
develop a thoughtful, practical and pragmatic National Broadband Plan.

    Question 3. Ms. Baker, you note that the ``FCC has the keys to 
unleashing the power of broadband.'' Today many rural Americans--who 
make up 17 percent of the U.S. population--are much less likely to have 
broadband than suburban or urban dwellers. I hope you share my view 
that rolling out broadband to rural America today should be made a top 
priority. What will you do as FCC Commissioners to ensure that rural 
Americans benefit from advanced telecommunications, including 
broadband?
    Answer. As noted above, I will proceed mindful of the importance of 
competitive and technological neutrality. Given the diverse geography 
and demographics of our nation, the plan must not favor one particular 
technology or type of provider over another, even inadvertently. 
Broadband deployment throughout America is not a one-size-fits-all 
proposition. Wireline, wireless and satellite technologies are each 
worthy alternatives. Low income residents in New Mexico will benefit 
from the lower prices resulting from the competition among an array of 
service providers.

    Question 4. During the campaign, President Obama said that 
reforming our universal service system will be a priority. I think that 
this essential if we are going to ensure affordable Internet access in 
rural parts of the country. Like the telephone in an earlier era, 
broadband has become essential in many ways. Job seekers must often 
look online for employment listings and file their applications 
electronically. Companies are less likely to locate or expand to areas 
where high speed Internet access is not affordable. Important public 
information from government agencies and news outlets is often 
available online. Will universal service reform be a top priority for 
the FCC under your leadership? What principles should guide any effort 
to reform universal service? Universal service does not cover 
broadband. Would you support universal service reforms to ensure 
greater Internet access for low income and rural Americans?
    Answer. While Chairman Genachowski will set the FCC's agenda, if 
confirmed, I would work with him and all of my FCC colleagues, to 
ensure that universal service reform proceeds in a timely, transparent 
and collaborative manner. With respect to guiding principles, I think 
that predictability in the subsidy support level would bring greater 
certainty in the marketplace and assurance to customers that they will 
receive affordable high quality services. If confirmed, I would proceed 
with the hope that a reformed system would operate in the most 
efficient and effective manner possible--collecting only the amount 
necessary, and spending only what is collected. Finally, as traditional 
wireline communication has moved to wireless, and as more and more 
services ride on the Internet platform, I think it is becoming more 
apparent that broadband should be part of a modernized universal 
service system. I am hopeful that the FCC's National Broadband Plan 
would include a discussion setting forth options on this question.

    Question 5. When we met to discuss your interest in becoming FCC 
Commissioners, I related a story about President Clinton visiting 
Shiprock, New Mexico, where a girl who won a computer did not have a 
telephone line or Internet access at home.
    Too many tribal areas still do not have basic phone service, let 
alone broadband. Telephone access in Indian country today is less than 
70 percent. Broadband access may be only 10 percent. Although the FCC 
has taken some positive steps to address this problem, the digital 
divide facing Indian country obviously is still a challenge. How will 
the FCC under your leadership work to erase the digital divide in 
Indian country?
    Given the distinct challenges and unique situation of our Nation's 
tribes, do you support having a tribal office within the FCC to better 
assist tribes' efforts to gain access to modern telecommunications 
services. My understanding is that the Telecommunications Act does not 
specifically mention tribes yet it should be understood that tribes 
were meant to be included. Will you support a flexible regulatory 
approach in order to meet the spirit of the law when helping tribes 
improve telecommunications access in Indian country?
    It has been 10 years since the FCC focused on tribal lands in a 
hearing on telephone services, can the Commission reinitiate hearings 
that focus directly on broadband and other critical services to tribal 
lands?
    Answer. Through my visits to New Mexico, I have grown to recognize 
that tribal lands face unique challenges and, given that they are some 
of the most under-served parts of America, have not meaningfully 
benefited from one-size-fits-all solutions. Given these circumstances, 
I understand that the FCC has created exceptions within the universal 
service program that are designed to ensure that companies operating in 
these remote areas will continue to receive high-cost support to 
provide their services while the Commission is considering the 
possibility of a more comprehensive reform. I also understand that the 
FCC has an attorney on its staff with responsibility for outreach to 
tribal lands. If confirmed, I look forward to learning more about the 
unique challenges that face tribal citizens and to joining with you and 
my colleagues to continue to make progress to eliminate disparities.

    Question 6. Most Americans now consider the digital TV transition 
over. However, New Mexicans living in rural areas will continue to 
receive analogue TV until their local TV translators switch to digital 
next year or later. How will the FCC ensure that these rural TV viewers 
will not be left in the dark when the DTV transition finally takes 
place in their area? How should the FCC and broadcasters address the 
issue of ``digital white spaces'' created in rural areas where free 
broadcast TV will no longer be available to some Americans?
    Answer. I fully support efforts to ensure that all over-the-air TV 
viewers continue to enjoy TV service. If confirmed, I will join with my 
FCC colleagues to identify any lingering challenges and resolve them 
expeditiously.

    Question 7. New Mexico is a rural state where most areas have just 
one or two cell phone providers. This situation already limits consumer 
choices. People in rural areas with few wireless companies to choose 
from have even fewer options for phone handsets due to exclusivity 
arrangements between carriers and phone manufacturers. This exacerbates 
the digital divide between urban and rural areas. With traditional 
wireline service, one can take any telephone to any home or office and 
just plug it in to make calls--no matter who the service provider is. 
Yet if one changes wireless carriers, one often has to buy a new phone. 
This seems wasteful and unnecessary. What policies would you support to 
increase the availability of smartphones to consumers, particularly 
those that live in rural areas? Do you believe public policy should 
mandate that wireless networks allow any new handset to connect to it, 
similar to the existing situation with wireline service since the 
Carterfone decision?
    Answer. From my own personal experiences as a wireless consumer, I 
understand the frustration. I also appreciate the desire of smaller 
companies to offer their customers a fuller complement of handsets. I 
was interested to learn of one company's recent compromise on exclusive 
handset agreements and hope these industry-driven solutions continue. 
On the other hand, I understand that there are about 30 companies that 
manufacture wireless devices for the U.S. market, and that over 630 
different handsets are sold in the U.S. Moreover, I recognize that the 
Commission has a longstanding precedent against participation in 
private contractual disputes, which may be at the heart of this matter. 
If confirmed, I look forward to working with Congress and my FCC 
colleagues on this challenging issue.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Olympia J. Snowe to 
                         Meredith Attwell Baker
    Question 1. The Government Accountability Office has issued several 
reports over the past 7 years on spectrum policy. One report, Options 
for and Barriers to Spectrum Reform (GAO-06-526T) released in March 
2006, stated that ``the current management framework may pose barriers 
to reform'' and that the GAO had previously made several 
recommendations to address this issue such as: (1) for the Commerce 
Secretary and FCC to establish and carry out formal, joint planning 
activities to develop a national spectrum plan to guide decisionmaking 
and (2) that relevant administrative agencies and Congressional 
committees work together to develop and implement a plan for the 
establishment of a commission that would conduct a comprehensive 
examination of current spectrum management. At the time of the report's 
release, it was noted that neither of those recommendations had yet 
been implemented. Since that time, do you know if those recommendations 
have been considered or implemented? If not, could you elaborate on why 
not?
    Answer. During my tenure as Acting Assistant Secretary at the 
National Telecommunications and Information Administration (NTIA), I 
was privileged to work on a comprehensive report pertaining to the 
Nation's airwaves used by the Federal Government, The Federal Strategic 
Spectrum Plan. Our work was based on submissions of spectrum plans from 
15 Federal agencies. As you know, the report described how the Federal 
Government uses spectrum and provided a framework for the National 
Spectrum Plan, which was called for by a 2004 Executive Memorandum and 
was to be completed in conjunction with the Federal Communications 
Commission. Unfortunately, the FCC has not yet completed their work on 
this plan. Therefore, the spectrum inventory, such as proposed in your 
bill, would be a beneficial exercise and, if undertaken in a thoughtful 
and deliberate matter, lay a foundation for more transparent, flexible 
and efficient spectrum management.
    I have a keen interest in spectrum matters, and, more specifically 
the means and tools to maximize spectral efficiency. If confirmed, I 
look forward to advancing the work of the Commission in this area, 
partnering with the NTIA and Federal users, as well as closely 
coordinating with Congress to optimize spectrum use and management.

    Question 2. The biggest issue last year with respect to network 
neutrality was with Comcast and its management of peer-to-peer traffic. 
In August of last year, the FCC concluded that Comcast violated the 
Commission's Internet open-access guidelines by blocking BitTorrent 
peer-to-peer traffic and found that Comcast's broadband-network-
management practices were arbitrary and capricious. The Commission gave 
the carrier 30 days to ``disclose the details'' of those 
``unreasonable'' network practices, as well as its plan for replacing 
them by year's end with network-management practices acceptable to the 
FCC. Comcast subsequently filed suit against the Commission challenging 
the FCC's authority to enforce those principles.
    Given that the FCC is charged with regulating interstate and 
international communications by radio, television, wire, satellite and 
cable, if the Court rules in favor of Comcast and states the FCC didn't 
have the authority to enforce its Internet Principles, what steps will 
you take as Commissioners to ensure the Commission does have the power 
to protect consumers' ability to access content of their choice--
fostering the creation, adoption and use of broadband Internet content, 
applications and services, and ensuring that consumers benefit from 
that innovation, which is what the principles were adopted for in the 
first place?
    Answer. Protecting consumers' ability to access the content of 
their choice is a responsibility that I take seriously. All 
policymakers have a duty to engage in principled and transparent 
decisionmaking. If confirmed, I will work collaboratively and 
constructively with my colleagues to ensure that we proceed in a 
prudent and thoughtful manner.

    Question 2a. Do you support the codification of the FCC Internet 
Principles?
    Answer. As policymakers, we all have an interest in ensuring the 
free flow of lawful content over the Internet. On the other hand, I 
would be concerned about any regulatory action that could lead to 
unintended harmful consequences. That said, debating this matter will 
be a healthy exercise. If confirmed, I look forward to engaging with my 
FCC colleagues, Congress and interested parties. As noted above, I will 
work collaboratively and constructively to ensure that the FCC proceeds 
in a transparent, prudent and thoughtful manner.

    Question 3. As you may know, I have been a champion for legislation 
that would ensure the inherent openness and freedom of the Internet 
remain intact and that carriers cannot use their networks in 
anticompetitive ways against content or applications providers or with 
new entrants. These protections are essential for allowing innovation 
to flourish at all points of the Internet supply chain.
    At the same time, I am cognizant that there has to be an 
appropriate level of flexibility for network operators to effectively 
manage their networks to ensure quality of service (QoS) to all 
customers as well as to combat the growing problem of piracy that 
plagues the Internet. According to the International Federation of the 
Phonographic Industry (IFPI), 40 billion songs were illegally 
downloaded in 2008 worldwide and that 95 percent of online music 
downloads are completed illegally. Obviously this illegal traffic 
attributes to the congestion that some broadband consumers experience 
when surfing the web as well as an undue increase in operational costs 
to network operators for delivering this illegal content.
    Do you have concerns about the growing problem of piracy? What are 
your views in balancing the necessity of ensuring the Internet remains 
open and that users can access lawful content, applications and 
services without restriction with our concerns that ISPs must be able 
to manage their networks in an appropriate way to maintain QoS and to 
protect against unlawful activities such as piracy and child 
pornography?
    Answer. It is reported that global copyright theft costs U.S. 
workers more than $16 billion in lost wages and 373,000 jobs each year. 
Illegal copyright infringement is a threat to our economy, our 
creativity and our global competitiveness. On the other hand, all 
policymakers have an interest in ensuring the free flow of lawful 
content over the Internet. For this reason, I would be concerned about 
any regulatory action that would have the potential to lead to 
unintended harmful consequences such as impairing a network owner's 
ability to protect against unlawful content and activities, such as 
piracy, spam, denial of service attacks or child pornography. If 
confirmed, I look forward to engaging with my FCC colleagues, Congress 
and interested parties. I would work collaboratively and constructively 
to ensure that the FCC proceeds in a transparent, prudent and 
thoughtful manner.

    Question 4. A 2008 Pew Internet & American Life Project survey 
found that approximately 62 percent of dial-up users said they weren't 
interested in switching to broadband. That same survey also found that 
33 percent of non-Internet users say they are not interested in using 
the Internet. So while we must focus on making sure affordable 
broadband is available to all Americans, we also must make sure that 
any ``digital divide'' is not self-inflicted--that individuals are 
aware and understand the importance of broadband and the countless 
benefits it can provide to them.
    The American Recovery and Reinvestment Act of 2009, does address 
this issue with tasking the FCC with developing a national broadband 
plan that includes a ``detailed strategy for achieving affordability of 
such service and maximum utilization of broadband infrastructure and 
service by the public.''
    What specific initiatives/proposals do you believe would be 
beneficial to achieving that goal of consumer awareness and education? 
And how involved should the government be in addressing that effort and 
improving the digital literacy of Americans?
    Answer. Under Acting Chairman Copps' leadership, the FCC did an 
outstanding job to educate and prepare consumers for the transition to 
digital television and lessons from this effort could be replicated. If 
confirmed, I look forward to working with my FCC colleagues, and 
coordinating with interested parties, to study the successes (and 
failures, if any) from the DTV transition process. The Commission 
appears to be well-poised to develop and implement educational efforts 
to increase consumer awareness regarding and use of broadband services. 
I would be pleased to be part of this effort.

    Question 5. As the FCC moves forward in its effort to establish a 
national broadband policy, in its notice of inquiry, the Commission 
seeks comment the definition of broadband. In its semiannual High-Speed 
Services for Internet Access Report, it historically collected date on 
lines that were 200 Kbps or higher. In revising the Form 477 collection 
it expands the number of broadband speed tiers but still uses 200 Kbps 
as a minimum standard.
    However, the United Kingdom, in its Digital Britain report, loosely 
defines broadband at 2 Mbps by outlining the countries effort to 
deliver its Universal Service Broadband Commitment at 2Mbps (a baseline 
service standard) by 2012. What are your thoughts as to what the 
appropriate definition of ``broadband'' should be--should it be a 
numerical value or a service metric defined by different services 
running concurrently over a connection or something else?
    Answer. Given the diverse nature of our Nation and the 
corresponding need to proceed in a technologically neutral manner, I 
would be reluctant at this time to define broadband in strict terms 
that might impede innovation. If confirmed, I look forward to joining 
with my colleagues and with interested parties on this important 
component of the FCC's work.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. Jim DeMint to 
                         Meredith Attwell Baker
    Question 1. What are your thoughts on ``localism'' mandates and 
community advisory boards for broadcasters and the content they air?
    Answer. I am aware that the FCC has a pending proceeding that 
proposes to require broadcasters to consult with advisory boards 
regarding content. While I do not want to appear to prejudge the 
outcome of this pending proceeding, I will state that I would be 
concerned about even the appearance of government involvement in 
station programming. I strongly believe in the First Amendment, and 
that the competitive marketplace provides broadcasters with the proper 
incentives to cover their local communities.

    Question 2. It is possible that community advisory boards may 
become populated by members of ideological groups and not provide an 
accurate representation of their local communities. Will you commit to 
oppose any efforts to use these local content advisory boards for 
partisan political purposes?
    Answer. Yes. I am committed to opposing any efforts to use any 
local content advisory boards for partisan political purposes.

    Question 3. How will you support and promote facilities-based 
competition in the communications market?
    Answer. If confirmed, I would work with Congress and my FCC 
colleagues to promote facilities-based competition by eliminating 
regulatory barriers and creating incentives for entering the 
communications marketplace. Of particular note is the promise of new 
facilities-based competition through new wireless technologies. New AWS 
and 700 MHz spectrum is coming into the market, with carriers launching 
new markets with regularity. White spaces spectrum will also provide an 
exciting opportunity for new entrepreneurs to enter the marketplace and 
provide additional competition. I am excited about the prospect of 
creating new avenues for competition, which delivers untold benefits to 
American consumers.

    Question 4. Do you believe broadband services should be eligible 
for Federal universal service support?
    Answer. Please see answer below.

    Question 5. Does section 254 of the Communications Act authorize 
support for these services or does the Act need to be amended to 
authorize it?
    Answer. With respect to questions 4 and 5, I understand that some 
universal service funds may be used for the purpose of deploying 
broadband services--for instance, to upgrade existing facilities or to 
construct new facilities. It may be inevitable and appropriate that 
universal service funding will continue to support broadband 
deployment. That said, the importance in analyzing options that would 
reform both the contribution and distribution universal service support 
mechanisms is apparent given that the funding contribution factor is 
now above 12 percent. If confirmed, I will closely coordinate with 
Congress, my FCC colleagues and interested parties to learn more about 
the universal service support systems, including whether Congress would 
need to amend Section 254 of the Communications Act to include funding 
for broadband deployment.

    Question 6. Please identify any specific occurrences or activities 
that, in your opinion, have violated net neutrality.
    Answer. Please see answer below.

    Question 7. Please also explain how the resolution of these 
episodes would have been expedited or improved had there been in place 
an enforceable rule or law mandating net neutrality.
    Answer. I am aware of the Madison River case, where the FCC took 
swift enforcement action against a carrier that was engaged in anti-
competitive content blocking. This case demonstrated that the 
Commission has the requisite tools to act quickly to investigate and 
resolve charges of unlawful activity. As a result, I am not convinced 
that this episode could have been expedited or improved. At the end of 
the day, consumers were the victors. Likewise, I am not convinced 
additional rules or policies on ``net neutrality'' are necessary. I 
would be concerned about any proposal to impose intrusive new 
regulations given the possible unintended harmful consequences--such as 
stifling innovation and investment. This is especially true given that 
the marketplace is rushing to satisfy the ever-evolving consumer 
demand. If confirmed, I look forward to engaging with my FCC 
colleagues, Congress and interested parties to ensure that the FCC 
proceeds in a transparent, prudent and thoughtful manner.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. Johnny Isakson to 
                         Meredith Attwell Baker
    Question 1. I have always been actively involved in taking the 
appropriate steps to combat child pornography on the Internet. As you 
know, in September of 2005, the FCC adopted a set of net neutrality 
principles that explicitly allows broadband providers to take 
reasonable steps to prevent unlawful activity such as child pornography 
and piracy or theft of copyrighted content over their networks.
    I have recently been made aware of the fact that it rejects the 
critical imperative that technological capabilities to block 
pornographic materials and pirated IP, like films and television be 
permitted. I am interested in knowing that it is your intention to 
confirm and adhere to this policy during your tenure as an FCC 
Commissioner.
    Answer. I think there is beginning to be a consensus that network 
operators must be able to enlist reasonable network management tools to 
maintain a functioning Internet and that there is a distinction between 
lawful and unlawful content. Unlawful content--child pornography, spam, 
denial-of-service attacks and pirated IP--has no protection. While 
network operators must not ``discriminate'' in an anti-competitive 
manner against lawful content, they nonetheless must have the 
flexibility to manage their networks without compromising the 
innovation that has led to the robust Internet today.

    Question 2. Our broadband ranking has stagnated at 15th in the 
world for a few years now. Competition is a key ingredient in driving 
investment and system upgrades that will improve broadband quality. 
What policies will you advocate while at FCC to ensure that our global 
broadband ranking increases, and promotes competition?
    Answer. The National Broadband Plan that Congress has charged the 
Commission to complete by February of next year is an important and 
strategic opportunity to ensure that the proper environment exists so 
that broadband can grow and continue to flourish. Hopefully this plan 
will include economic incentives to build out infrastructure faster at 
higher speeds and set a regulatory climate that rewards innovation, 
investment and encourages competition. A spectrum policy that unleashes 
the value of the public airwaves is critical, as is effective and 
efficient management of programs such as universal service. If 
confirmed, I pledge to work with my colleagues to ensure a timely, 
thorough and thoughtful plan.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Charles Grassley to 
                         Meredith Attwell Baker
    Question 1. The FCC has already been working hard on broadband 
deployment issues through notices of inquiry. I'm happy to see the 
Commission thinking long-term and look forward to seeing the results. 
However, I'd like to know if there are any reforms to the USF program 
that could be taken in the shorter term, such as ensuring rural 
carriers that have purchased underinvested assets of the Nation's 
largest carriers have a meaningful opportunity to qualify for high-cost 
support. If so, would these include qualifying for support based on 
forward-looking economic cost or cost estimates based on population 
density?
    Rural and non-rural carriers serve high cost, rural areas of the 
country--such as in Iowa, yet their USF distribution mechanisms differ. 
Worse yet, some ``rural'' carriers don't receive any high cost support 
because of bad investment and business decisions made by the previous 
owners of their network. As FCC Chairman, what changes would you 
propose to the current system that would more equitably allocate high 
cost USF support? Would standardizing the funding based on forward-
looking costs be a more realistic approach that would result in a more 
equitable distribution of support?
    Answer. While the Universal Service system has been instrumental in 
keeping Americans connected and improving their quality of life, this 
system is in need of comprehensive reform. As noted earlier, if 
confirmed, I look forward to working with Congress and my FCC 
colleagues to tackle these challenging and important issues.

    Question 2. The FCC has had before it the remand from the Tenth 
Circuit concerning the non-rural high-cost universal service program 
for the entire time you have been on the Commission and just received 
yet another round of comments. The non-rural program is currently the 
only means by which a carrier can qualify for USF support based on 
forward-looking economic cost. Based on your experiences at the 
Commission, what are your thoughts on how to determine eligibility to 
receive high-cost funding? Do you think the current distinctions 
between the rural and the non-rural programs make sense?
    Iowa is a predominantly rural state. The GAO reported in 2008 that 
the USF high cost fund's structure has contributed to inconsistent 
distribution of support and availability of services across rural 
America. If we fail to remedy this situation of today's system, the 
problem will likely only get worse if the system is expanded to include 
broadband support. Why do you think vastly different high-cost support 
mechanisms present a fundamental inequity in the USF system? How should 
this inequity be addressed by the FCC to remedy the situation?
    Answer. If confirmed, I look forward to working with my colleagues 
to satisfactorily resolve the questions posed to us by the Tenth 
Circuit and to continuing our work toward fundamental reform of the 
intercarrier compensation and Universal Service systems. In that 
context, the Commission can appropriately address the Commission's 
decision to provide different support mechanisms for rural and non-
rural carriers.

                                  <all>

</pre></body></html>
